Treasury Inspector General for Tax Administration




Semiannual Report to the Congress

              October 1, 2001 through March 31, 2002
Treasury Inspector General For Tax Administration

Mission Statement
Provide audit and investigative services that promote economy, efficiency
and integrity in the administration of the internal revenue laws.


Vision Statement
We are a respected member of the government community:

●   Independent, objective and professional in the conduct of our mission.

●   Dedicated and innovative professionals who take pride in promoting
    fair tax administration and good government.

●   Proud of our past and focused on the future.
Significant Activities                                                                                          ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○       ○       ○           ○           ○       ○       ○       ○       ○       ○       ○   ○       ○       ○       ○       ○   ○       ○   ○   1
    September 11, 2001                                                          ○               ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○       ○       ○           ○           ○       ○       ○       ○       ○       ○       ○   ○       ○       ○       ○   ○       ○       ○   ○   1

    Other TIGTA Activities                                                                              ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○       ○       ○           ○           ○       ○       ○       ○       ○       ○   ○   ○       ○       ○       ○       ○   ○       ○   ○
                                                                                                                                                                                                                                                                                                                                                                                                                4

TIGTA's Results                                                 ○       ○           ○               ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○       ○       ○           ○           ○           ○       ○       ○       ○       ○       ○   ○   ○       ○       ○       ○       ○   ○       ○   ○   7




                                                                                                                                                                                                                                                                                                                                                                                                                     Table of Contents
TIGTA Strategic Goal: Improving the Efficiency and
Effectiveness of Tax Administration                                                                                                                                                         ○           ○           ○           ○           ○           ○       ○       ○           ○           ○       ○       ○       ○       ○       ○       ○       ○   ○       ○       ○       ○       ○   ○       ○   ○   8

   Information Security Systems                                                                                                                         ○           ○           ○           ○           ○           ○           ○           ○           ○       ○       ○       ○           ○           ○       ○       ○       ○       ○       ○       ○   ○       ○       ○       ○       ○   ○       ○   ○   8

   Business Systems Modernization                                                                                                                                                   ○           ○           ○       ○           ○           ○           ○       ○       ○           ○           ○           ○       ○       ○       ○   ○       ○       ○   ○       ○       ○       ○       ○       ○   ○   ○   9

   Returns Processing                                                           ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○       ○       ○           ○           ○       ○       ○       ○       ○       ○       ○   ○   ○       ○       ○       ○       ○   ○       ○   ○   11

   Compliance       ○       ○           ○           ○           ○           ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○       ○       ○           ○           ○       ○       ○       ○       ○       ○   ○   ○       ○       ○       ○       ○   ○       ○   ○   14

   Earned Income Credit                                                                 ○               ○               ○               ○           ○           ○           ○           ○           ○           ○           ○       ○           ○           ○       ○       ○           ○           ○       ○       ○       ○       ○       ○   ○       ○   ○       ○       ○       ○       ○   ○       ○   ○   15

   Government Performance Results Act                                                                                                                                                                               ○           ○           ○           ○       ○       ○       ○           ○           ○       ○       ○       ○       ○       ○       ○   ○       ○       ○       ○   ○       ○       ○   ○   18

   Federal Financial Management Improvement Act                                                                                                                                                                                                                                 ○           ○           ○       ○       ○       ○       ○       ○       ○   ○       ○       ○       ○       ○   ○       ○   ○   19

TIGTA Strategic Goal: Detecting and Deterring Fraud in IRS
Programs and Operations                                                                                         ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○       ○       ○           ○           ○       ○       ○       ○       ○       ○       ○   ○       ○       ○       ○   ○       ○       ○   ○   21

   Internal Fraud           ○           ○           ○           ○           ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○       ○           ○           ○       ○       ○       ○       ○       ○   ○       ○   ○       ○       ○       ○       ○   ○       ○   ○   21

   External Fraud               ○           ○           ○           ○           ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○       ○           ○           ○       ○       ○           ○       ○           ○       ○       ○       ○       ○   ○       ○   ○       ○       ○       ○       ○   ○       ○   ○   23

TIGTA Organization                                                                                          ○               ○           ○           ○           ○           ○           ○           ○           ○           ○       ○           ○           ○       ○       ○           ○       ○           ○       ○       ○       ○       ○   ○       ○   ○       ○       ○       ○       ○   ○       ○   ○   32

Appendices              ○       ○           ○               ○           ○           ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○       ○       ○           ○           ○       ○       ○       ○       ○       ○       ○   ○       ○       ○       ○   ○       ○       ○   ○   37
Appendix I — Statistical Reports for the
Office of Audit ○       ○           ○           ○           ○           ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○       ○       ○           ○           ○       ○       ○       ○       ○       ○       ○   ○       ○       ○       ○       ○   ○       ○   ○   38

   Audit Reports with Questioned Costs                                                                                                                                                                  ○           ○           ○           ○           ○       ○       ○           ○       ○           ○       ○       ○       ○       ○       ○       ○   ○       ○       ○       ○       ○   ○       ○   ○   38

   Report Recommendations that Funds be Put to Better Use                                                                                                                                                                                                                                                                               ○       ○       ○   ○       ○       ○       ○   ○       ○       ○   ○   39

   Reports with Additional Quantifiable Impact on Tax Administration                                                                                                                                                                                                                                                                                            ○       ○       ○       ○       ○       ○   ○   40
Table of Contents




    Appendix II — Statistical Reports for the Office of
      Investigations             ○       ○       ○       ○           ○           ○           ○       ○           ○           ○           ○           ○           ○               ○       ○           ○           ○           ○           ○           ○           ○       ○           ○           ○           ○           ○           ○           ○       ○       ○       ○       ○       ○       ○   42

        Investigations Opened and Closed                                                                                                             ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○           ○           ○           ○           ○           ○           ○       ○       ○       ○       ○       ○       ○   42

        Financial Accomplishments                                                                        ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○       ○               ○       ○           ○           ○           ○       ○       ○       ○       ○       ○       ○   42

        Status of Closed Investigations                                                                                  ○           ○           ○           ○               ○           ○           ○           ○           ○           ○           ○           ○       ○           ○           ○           ○           ○           ○           ○       ○       ○       ○       ○       ○       ○   43

        Criminal Dispositions                                ○           ○           ○       ○       ○           ○           ○           ○           ○           ○               ○           ○           ○           ○       ○           ○           ○           ○       ○           ○           ○           ○           ○           ○           ○       ○       ○       ○       ○       ○       ○   43

        Administrative Status and Disposition on Closed
          TIGTA Investigations                                               ○           ○       ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○           ○           ○       ○           ○           ○       ○           ○           ○           ○       ○       ○       ○       ○       ○       ○   44

        Complaints/Allegations Received by TIGTA                                                                                                                                                                 ○           ○           ○           ○           ○       ○           ○           ○           ○           ○           ○           ○       ○       ○       ○       ○       ○       ○   45

        Status of Complaints/Allegations Received by TIGTA                                                                                                                                                                                                                       ○           ○           ○           ○           ○           ○       ○       ○       ○       ○           ○       ○   45

        Allegations of Employee Misconduct Investigated by
            IRS Management                               ○           ○           ○           ○       ○           ○           ○           ○           ○           ○               ○           ○       ○           ○           ○           ○           ○           ○       ○           ○           ○           ○           ○           ○           ○       ○       ○       ○       ○       ○       ○   46

        Disposition of Employee Misconduct Cases Investigated by
           IRS Management                                ○           ○           ○           ○       ○           ○           ○           ○           ○           ○               ○           ○       ○           ○           ○           ○           ○           ○       ○           ○           ○           ○           ○           ○           ○       ○       ○       ○       ○       ○       ○   47

        IRS Summary of Substantiated Section 1203 Allegations                                                                                                                                                                                                                                                    ○           ○           ○           ○       ○       ○       ○           ○       ○   48

    Appendix III — Statistical Reports - Others                                                                                                                                                              ○           ○           ○           ○           ○       ○       ○           ○           ○           ○           ○       ○           ○       ○       ○       ○       ○       ○       ○   49

        Audit Reports with Significant Unimplemented Corrective
           Actions   ○   ○   ○       ○       ○       ○           ○           ○           ○       ○       ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○       ○           ○           ○       ○           ○           ○       ○           ○           ○           ○       ○       ○       ○       ○       ○       ○   49

        Statistical Reports - Others                                                                 ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○           ○           ○       ○           ○           ○           ○       ○       ○       ○       ○       ○       ○       61

    Appendix IV — Audit Products Listing                                                                                                                         ○               ○           ○           ○           ○           ○       ○           ○           ○       ○           ○           ○           ○           ○           ○           ○       ○       ○       ○       ○       ○       ○   62

    Appendix V — Statutory TIGTA Reporting Requirements                                                                                                                                                                                                                                                                  ○           ○           ○       ○       ○       ○       ○       ○       ○   68

    Appendix VI — Section 1203 Standards                                                                                                                                         ○           ○           ○           ○           ○       ○           ○           ○       ○           ○           ○           ○           ○           ○           ○       ○       ○       ○       ○       ○       ○   72
                                                          IRS is a highly visible potential target for
September 11, 2001                                        domestic and international terrorism,
                                                          appropriate congressional groups receive
Challenges                                                interim briefings. TIGTA will report formally
                                                          on the results of its ongoing assessments
                                                          in its next Semiannual Report to Congress.
The events of September 11, 2001, changed
the Internal Revenue Service’s (IRS) security
paradigm. The terrorist attacks and the                   Activities
subsequent anthrax scare made it a realistic




                                                                                                                         Significant Activities
possibility that multiple IRS locations
simultaneously could be incapacitated. Since                     Providing Emergency and
September 11th, IRS has worked aggressively
                                                                  Investigative Assistance
to gain an understanding of these new risks
and to deal with them.
                                                          Immediately following the terrorist attacks
                                                          of September 11, 2001, TIGTA provided
The Treasury Inspector General for Tax
                                                          extensive emergency and investigative
Administration (TIGTA) has been participating
                                                          assistance to federal, state and local law
in IRS’ security efforts in two ways. First, the
                                                          enforcement agencies. Initial recovery
Office of Investigations (OI) meets daily with
                                                          efforts required temporarily relocating the
the Federal Bureau of Investigation (FBI) to
                                                          TIGTA staff and operations from the World
stay abreast of new threats and is acting as
                                                          Trade Center complex and maintaining the
the primary conduit of that information to IRS.
                                                          investigative continuity of the office.
Second, the Office of Audit (OA) is working in
                                                          Congress approved supplemental funds to
coordination with the General Accounting
                                                          replace TIGTA’s New York City office and
Office (GAO) to provide a comprehensive
                                                          the equipment destroyed at the World
evaluation of IRS’ security initiatives. Since
                                                                                Trade Center.

                                                                                       TIGTA Headquarters
                                                                                       temporarily ceased
                                                                                       normal activities on
                                                                                       September 11, 2001,
                                                                                       and dedicated all
                                                                                       available investigative
                                                                                       resources towards the
                                                                                       terrorist attack
                                                                                       investigation. This
                                                                                       included the
                                                                                       implementation of a
                                                                                       24-hour TIGTA
                                                                                       command post,
                                                                                       participation at various
                                                                                       command posts
                                                                                       established in the area,
                                                                                       and enhanced
                                                                                       participation at the




                         TIGTA's FY 2002 Semiannual Report to Congress   ❍   March 31, 2002 ❍ Significant Activities 1
Significant Activities

FBI’s Joint Terrorism Task Forces (JTTF)                      Diverting the Strategic Enforcement
around the country. TIGTA personnel worked                            Division (SED) Staff
expanded schedules and assisted in various
investigative efforts, to include conducting                 The entire SED staff assisted the FBI in the
pertinent interviews and the collection of                   investigation of international and domestic
evidence at both the World Trade Center and                  terrorism. SED secured data and provided
the Pentagon.                                                summaries of the information to the FBI. As a
                                                             result of this effort, OI provided the FBI with
TIGTA continues to maintain a presence at
                                                             vital information on data requests. In October
the FBI’s JTTF and support efforts combating
                                                             2001, SED expended approximately 2,700 staff
terrorism. Under Section 7212 of Title 26 of
                                                             hours in direct support of this investigation.
the United States Code1 and the Restructuring
and Reform Act of 19982 (RRA 98), TIGTA
has statutory responsibility to investigate and
pursue attempts to corrupt or forcibly interfere
with the administration of internal revenue
laws. A violation of this statute includes
threats against IRS personnel and facilities.

TIGTA immediately redirected assets to
support both the New York staff, as well as the
national investigative efforts coordinated by
the FBI. This included 24-hour staffing at the
FBI command post for all agencies supporting
the investigation. It served as the central
location and repository for information and
investigative results. TIGTA temporarily                  Pictured left to right: TIGTA Special Agent Al Rolek, Investigative
                                                            Specialist Dave Verhun, Asst.Special Agent-in-Charge Mike
assigned 10 special agents and maintained                         Doak and Investigative Specialist Dave Weaver.
coverage at the command post from
September 2001 through January 2002.
                                                              Participating in the Federal Aviation
OI’s Technical Services Section (TSS)                                Administration (FAA)
provided extensive emergency and                                      Air Marshal Program
investigative assistance to federal, state and
local law enforcement agencies during its                    Along with other participating agencies, TIGTA
response to the terrorist attacks on the World               detailed special agents to participate in the FAA
Trade Center in New York City. TSS deployed                  Air Marshal Program, which enabled the FAA to
its mobile communications command post to                    quickly strengthen the safety and security of air
coordinate two-way radio communications                      travel in the U.S. The newly created
among United States (U.S.) Treasury bureaus                  Transportation Security Administration is now
and various elements of the state and local                  deploying recently hired Air Marshals, which
law enforcement first responders.                            permits the return of TIGTA and other Treasury
                                                             agents. TIGTA’s participation in this effort
                                                             concluded on April 1, 2002, and allowed the
                                                             special agents who assisted in the Air Marshal
1
  The Internal Revenue Code (I.R.C.) is contained in         Program to return to their posts of duty to
Title 26 of the United States Code (U.S.C.). Thus,           resume their investigative responsibilities.
I.R.C. § 7212 and 26 U.S.C. § 7212 refer to the same
code section.
2
    Pub. L. No. 105-206, 112 Stat. 685.



2 2 TIGTA's
        TIGTA's FY 2002
            FY 2002     Semiannual
                    Semiannual     Report
                               Report     to Congress
                                      to Congress     ❍ March
                                                  ❍ March     31, 2002
                                                          31, 2002
                                                                                       Significant Activities

   Detailing a TIGTA Computer                            federal law enforcement agencies. That day
Investigative Support Special Agent                      approximately 50 employees were evacuated
                                                         from the service center. Two employees
A Computer Investigative Support special                 underwent a thorough decontamination
agent was detailed to the National                       process. While the letter later tested negative
Infrastructure Protection Center (NIPC) to               for anthrax, criminal proceedings are pending
assist in analyzing digital evidence developed           against the individual who allegedly mailed
during the national investigation. The TIGTA             the letter.
agent participated by using specialized
forensic software to examine over 168 hard                  Bomb Threat Resulted In Arrest
drives and 30 additional pieces of evidence to
identify graphic image files that would                  In October 2001, TIGTA special agents
otherwise not be detected. Leads from the                arrested an individual who threatened to blow
examination were forwarded to a separate                 up IRS buildings during telephone contact with
NIPC unit for further analysis and                       agency officials. When interviewed by TIGTA,
investigation.                                           the individual made reference to the “World
                                                         Trade Center bombing.” In November 2001, a
                                                         federal grand jury returned an indictment
Investigations                                           charging this person with 18 U.S.C. § 844(e),
                                                         Threat of Explosive. Additionally, a charge of
TIGTA, and its predecessor agency, IRS                   18 U.S.C. § 111, Assaulting, Resisting, or
Inspection Service, have a 50-year history of            Impeding Federal Officers is pending since
investigating threats to IRS and its employees.          the individual assaulted TIGTA special agents
Since the terrorist attacks of September 11th,           at the time of arrest.
TIGTA has investigated more than 40 incidents
involving a suspicious biological or chemical
material either mailed to or identified at an IRS                   Taxpayer Perpetrated
lockbox or IRS facility, including anthrax hoax                        Anthrax Hoax
mailings and bomb threats.
                                                         An envelope containing a white powdery
 Examples of these investigations follow.                substance was discovered at an IRS lockbox
                                                         facility in December 2001. The envelope also
                                                         contained a note that said, "This is anthrax." A
Domestic Terrorism Disrupted IRS                         female's name was listed as the sender of the
   Service Center Operations                             envelope. Although the return address on the
                                                         envelope was fictitious, TIGTA special agents
In an October 2001 incident that cost IRS                identified the actual address and interviewed
almost $16,000 in lost labor, an individual was          an individual who was subsequently cleared of
arrested and indicted for mailing threatening            involvement. A former suitor, however,
communications to an IRS service center. The             confessed to sending the letter in an attempt
letter contained a newspaper article related to          to implicate his girlfriend. Although the powder
anthrax, a handwritten statement that read,              in the envelope tested negative for anthrax, in
“Call the FBI,” and a diagram of a human body            January 2002 a federal grand jury indicted the
with marks where surgical incisions would be             individual on one count of violating
made. Inside the package was a brown paper               18 U.S.C. § 876 and one count of violating
bag folded several times. Due to the contents            26 U.S.C. § 7212, Attempting to Interfere with
of the letter, a hazardous materials response            the Administration of Internal Revenue Laws.
team was notified, as well as state, local and



                                           TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   3
Significant Activities

                                                                         Engines of Change
      IRS Employee Pled Guilty to
        Anti-Muslim Hate Crime                               The organization is currently undertaking four
                                                             major management initiatives. The four
In September 2001, subsequent to the                         initiatives are: Alignment, Leveraging
terrorist acts at the World Trade Center and                 Technology, Human Capital and Performance
Pentagon, the FBI reported to TIGTA that an                  Driven Organization. These initiatives are
IRS employee was a suspect in a federal civil                designed to restructure and realign the
rights investigation concerning an anti-Muslim               organization to meet the challenges
hate crime. It was alleged that the IRS                      confronting it both today and in the future. By
employee vandalized an automobile. The FBI                   strategically addressing these initiatives,
and a local police department substantiated                  TIGTA plans to transform its work
the initial allegation, as well as additional                environment.
violations of law. In November 2001, the IRS
employee was charged with two counts of
racial and religious harassment, one count of                Inspector General (IG)
malicious destruction of property, one count of
theft and one count of breaking and entering.                Community Support
In January 2002, the IRS employee pled guilty
to one count of malicious destruction of
property.                                                                Dual IG Function

                                                             TIGTA’s Inspector General, David C. Williams,
Other TIGTA                                                  served as the acting Inspector General for the
                                                             Department of Housing and Urban
Activities                                                   Development (HUD) from July 2001 through
                                                             March 2002. This dual responsibility was a
                                                             temporary assignment until the permanent
Initiatives                                                  HUD Inspector General was confirmed on
                                                             March 22, 2002.

   Virtual Resource Solution (VRS)
                                                                 President’s Council on Integrity
TIGTA has fully embraced the concept of                               and Efficiency (PCIE)
moving workers out of the traditional office
environment and into a Telework environment.                 TIGTA’s IG serves as the editor-in-chief of The
As a first step in this evolutionary process,                Journal of Public Inquiry, the twice yearly
eligible TIGTA employees have the flexibility to             publication of the PCIE. Journal articles are
work remotely while still meeting the business               written by members of the IG community,
needs of the organization. TIGTA believes this               scholars, and professionals outside the
initiative will maximize its use of technology to            federal government on topics important to the
improve productivity while still providing a                 PCIE and the Executive Council on Integrity
safe, secure and family-friendly work                        and Efficiency (ECIE). The Fall/Winter 2001
environment for its employees. VRS is an                     edition focused on the IG community’s “War
integral part of TIGTA’s Engines of Change                   on Corruption.” The edition was dedicated to
(see below), which are designed to                           the memory of those who died as a result of
restructure and realign the organization to                  the September 11, 2001 terrorist attacks.
meet the challenges of the future workplace.




4 4 TIGTA's
       TIGTA's  FY 2002
            FY 2002     Semiannual
                    Semiannual     Report
                               Report     to Congress
                                      to Congress     ❍ March
                                                  ❍ March     31, 2002
                                                          31, 2002
                                                                                       Significant Activities

         2002 Winter Olympics                           terrorism investigation. Specifically,
                                                        Commissioner Rossotti acknowledged the
TIGTA supported the security efforts at the             New York Field Division efforts to assist the
2002 Winter Olympics in Salt Lake City, Utah.           FBI’s JTTF and the TIGTA presence at the
For three weeks in February 2002, special               multi-agency Leads Desk and the Command
agents were assigned at both the Coordination           Center. Commissioner Rossotti also
Center and the Soldier Hollow venue at the              acknowledged TIGTA's Technical Services,
Olympics. The Soldier Hollow venue was the              TIGTA's Office of Audit, Office of Information
location of several Alpine competition events,          Technology, Office of Management Services
including biathlon and cross-country skiing,            and the Management Assistants in the New
while the coordination center served as the             York Field Division for their efforts in our
command post for federal agencies involved in           nation’s resumption efforts and our fight
the security efforts. Due largely to the overall        against terrorism.
preparation and implementation of a sound
security plan, the 2002 Winter Olympic Games                   Deputy Inspector General
concluded without the occurrence of any                     for Audit Awarded Presidential
significant security incidents.
                                                                     Rank Award

                                                        Each year the President recognizes a small
Employee Recognition                                    percentage of the Senior Executive Service for
                                                        their ability to lead a Government that delivers
Employees are TIGTA’s most important                    great service, achieves results and continually
assets. It is through their hard work and               pushes to get the job done more effectively
dedication that TIGTA is able to successfully           and efficiently. This year, TIGTA's Deputy
accomplish its mission. While the organization          Inspector General for Audit, Pamela J.
is proud of all its employees, TIGTA would like         Gardiner, was awarded the Presidential Rank
to give special recognition to those individuals        Award for Meritorious Service for her
who have been honored by individuals and                achievements within the Audit community.
organizations outside of TIGTA.

                                                              Special Agent Recognized by
    IRS Commissioner Recognizes                                  U.S. Attorney’s Office
          TIGTA Employees
                                                        On December 7, 2001, the United States
On November 5, 2001, IRS Commissioner                   Attorney of Los Angeles, California,
Charles O. Rossotti, presented the                      recognized TIGTA Special Agent William
Commissioner’s Award to the TIGTA                       Schafer for his “distinguished service” and
employees in the New York Field Division.               leadership in an identity theft investigation
Special Agent-in-Charge Michael Delgado                 conducted by the U.S. Attorney’s Organized
accepted the award on behalf of the New York            Crime Strike Force. The task force was
Field Division. Commissioner Rossotti                   composed of members from various federal
commended the New York Field Division for               and local law enforcement agencies. Special
the manner in which they responded to the               Agent Schafer was the lead agent on the
events of September 11, 2001, and their                 investigation that led to the successful
participation in the government business                prosecution of 18 individuals and court-
resumption effort. Additionally, Commissioner           ordered restitution and fines in excess of
Rossotti praised the Division special agents            $12 million dollars.
for their significant contribution toward the



                                          TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   5
Significant Activities

       Performance and Results                                The TIGTA employees recognized included:
                                                              Terry Freedy, Kay Arthur, Emily Ball, Rick
     Information System (PARIS)
                                                              Barrett, Ron Hudson, Suzanne Smith
        Team Receives PCIE’s                                  Courtney, and Sue Wainwright.
          Special Act Award

The PCIE recognized the tremendous effort                       Special Agent Receives Accolades
put forth by the PARIS team in developing a                       from United States Attorney
new management information system for
TIGTA’s Office of Investigations. The PARIS                   On December 20, 2001, the United States
system has quickly drawn the interest of                      Attorney and Assistant United States Attorney
other agencies in the Inspector General                       of Grand Rapids, Michigan recognized TIGTA
community. Those TIGTA employees                              Special Agent Jon Street for his performance
recognized for this award included: Cammie                    during an investigation and subsequent trial.
Weaver, Steven McConville, Laura West, J.                     Special Agent Street's recollection of the
Robert Donnan, Christine Orcutt, Thomas                       specific events throughout the enormous
Salter, Sunghee Heil, Jan Flowers, Samuel                     investigation was described by the United
Wilcox, Lois Gray, Candace Farr, Wilma                        States Attorney as "fantastic," and ultimately
Figueroa, and Kathleen Johnson.                               led to the conviction by a unanimous jury on
                                                              all 67 counts.
      Joint PCIE-ECIE Award for
              Excellence

Several TIGTA employees detailed to the
Inspector General Criminal Investigator
Academy were among those recently
recognized by the PCIE and the ECIE.




66 TIGTA's
       TIGTA's FY 2002
           FY 2002     Semiannual
                   Semiannual     Report
                              Report     to Congress
                                     to Congress     ❍ March
                                                 ❍ March      31, 2002
                                                         31, 2002
          Agency Accountability: A Key
          Watchword of the Administration

          The President’s 2001 Management Agenda calls for performance and budget
          integration - the underlying information essential to government - and for an
          agency’s thinking to shift from asking “how much money” it needs to an explanation
          of “how well” it is doing. This focus allows taxpayers to more easily assess the
          relative effectiveness of any program for which their money is spent.




                                                                                                                   TIGTA's Results
          Each agency’s budget submission is now being scrutinized for such a link. As the
          Office of Management and Budget’s Comptroller of Federal Financial Management
          points out, “... (we are) asking agencies and advocates to supply evidence of
          program effectiveness instead of assuming effectiveness in the absence of
          evidence to the contrary.”3

          To embrace this new direction, for this six-month reporting period, TIGTA highlights
          the results of its work related to its strategic goals.4 These are:

                  • Improving the economy, efficiency, and effectiveness of tax
                     administration.

                       TIGTA’s audit work supporting this goal revolves around
                       information security; business systems modernization;
                       returns processing; compliance; earned income credit;
                       Government Performance and Results Act; and, the
                       Federal Financial Management Improvement Act.



                  •    Detecting and deterring fraud, waste, abuse or misconduct
                       by employees, as well as persons outside the IRS.

                       Investigative and audit work supporting this area
                       revolves around internal and external fraud.




3
  Testimony of the Honorable Mark W. Everson, Comptroller of Federal Financial Management, Office of
Management and Budget, before the Subcommittee on Government Efficiency, Financial Management and
Intergovernmental Relations, February 15, 2002.
4
    TIGTA’s Strategic Plan for Fiscal Years 2000-2005.




                              TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002 ❍ TIGTA's Results 7   7
    TIGTA Strategic Goal: Improving the Efficiency and
           Effectiveness of Tax Administration

During this reporting period, TIGTA’s audit                 Sufficient and capable staffing was not
work supported its strategic goal to improve                assigned to administer firewalls. In addition,
efficiency and effectiveness of tax                         many Internet gateways still did not have
administration. By conducting                               intrusion detection installed.
comprehensive, independent performance
and financial audits of IRS programs and                    Internal networks were also vulnerable.
operations, TIGTA promoted the sound                        Audits have shown that IRS cannot detect
administration of the nation’s tax laws through             many unauthorized accesses because it
timely reports on program and operational                   still does not routinely review audit trails for
deficiencies. TIGTA audits made                             its sensitive systems except for one major
recommendations to improve tax                              system and possibly a small number of
administration services and to strengthen                   others. This weakness has persisted over
controls over IRS programs and operations.                  several years and sufficient actions have
                                                            not been taken to address these issues.
                                                            IRS has cited a lack of computer capacity, a
Information Systems                                         lack of tools and guidelines, and insufficient
                                                            staffing as contributing to these problems.
Security
                                                            OA attributes many of these conditions to:
The networking of computers and increased
use of the Internet, combined with the growing              •    A reluctance by program managers to
number of destructive computer viruses, has                      take responsibility for the security of the
made the IRS more vulnerable to the risk of                      systems they operate. The Chief
data loss or theft.                                              Information Officer’s Office of Security
                                                                 has primary accountability, contrary to
During this reporting period, OA conducted six                   Office of Management and Budget
reviews related to information systems                           (OMB) policy, which states that
security.                                                        program managers are responsible for
                                                                 the systems they own.
The following summarizes the results of
those reviews.                                              •    Many IRS employees with key security
                                                                 responsibilities do not have the
OA continues to identify significant security                    requisite knowledge and skills.
weaknesses in IRS’ computer systems and
networks. Recent audits indicate that IRS                   •    IRS employees are not sufficiently
remains vulnerable to attacks by outside                         aware of security risks and their own
hackers, and to internal abuses by unethical                     responsibilities. During a recent test of
or disgruntled employees.                                        security awareness, 71 of 100
                                                                 employees agreed to change their
For example, the agency’s Internet gateways                      password to one requested by a TIGTA
are vulnerable. Audits have shown that Internet                  contractor posing as a “help desk”
gateway firewalls and routers were not                           employee. The extremely high
patched when new security weaknesses were                        percentage of employees willing to
identified and their configurations were weak.                   compromise their passwords indicates
Activity logs were not generated and reviewed.                   that the IRS has not done enough to


8      TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
                                                                                          TIGTA's Results
   train employees on their security                    improvements in some management
   obligations. Even the best security                  capabilities, such as configuration and
   procedures and controls can easily be                change management, and has also stabilized
   circumvented if employees are not aware              its funding process so it has funds available
   of their responsibilities.                           for the projects scheduled for 2002.

OA made recommendations to correct the                  However, IRS continues to struggle with
weaknesses identified and, generally, IRS has           developing and integrating the discipline and
taken or planned appropriate corrective                 repeatable processes needed to effectively
actions. A list of information systems security         and efficiently modernize its technology. OA
related reports issued during this period are           continues to monitor and report on the areas
included in Appendix V on page 71.                      that, at this stage, pose potential barriers to
                                                        the success of BSM (see page 10).

Business Systems                                        OA recommended corrective actions to
                                                        strengthen the controls over the conditions
Modernization (BSM)                                     identified. For those reports where a response
                                                        has been received, IRS management agreed
During this reporting period, BSM's program             with most of the recommendations and has
success is considered at significant risk due           taken or planned corrective actions to
to several factors including: the cost of               implement the recommendations.
implementation; IRS’ continued struggle to
accomplish modernization efforts; and                   All Information Systems and Business
because IRS reforms, such as improved debt              Systems reviews are considered statutory
collection, are dependent on modernized                 based on RRA 98. A listing of all statutory
systems.                                                reports, including the reports summarized
                                                        above, are listed in Appendix V, page 68.
OA conducted three reviews in this area
during this reporting period. Findings show
that the IRS has made progress in
modernizing its information technology
systems, but the overall pace of the
modernization has been considerably slower
than expected.

Examples of the progress made since
October 1, 2001 include the recent
deployment of an improved Computer User
Helpdesk that will eventually consolidate 19
separate help desks, and an Asset Inventory
System that should help address a chronic
problem of tracking the IRS’ computers and
other technology assets. The IRS has also
developed and updated an Integrated Master
Schedule to help sequence new projects and
identify dependencies among the various
projects. IRS is working on several key
projects that are scheduled for release later in
2002. The IRS has made incremental



                                          TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   9
TIGTA's Results

                               Business Modernization Issues

To date, virtually all BSM projects controlled            The IRS and the PRIME contractor have not
by the PRIME contractor have been delayed                 implemented adequate application testing
and have incurred cost increases. As of                   processes. Neither IRS nor the PRIME
September 30, 2001, IRS had spent or                      contractor could provide evidence that all critical
obligated over $575 million in modernization              capabilities of the project intended to increase
funds, and it plans to spend or obligate $390             taxpayer telephone and communication service
million in 2002. The IRS intends to deliver               levels to those similar to the private sector were
several projects with direct taxpayer benefits in         sufficiently tested to ensure they were working
2002; however, some of these projects will be             as intended. Further, there was a lack of
deployed later than planned, and others have              documentation to show how problems or
been scaled back in order to meet delivery                defects identified during these tests were
dates. The IRS and the PRIME contractor                   resolved. Without this documentation, the IRS
continue to be unreasonably optimistic about              had no evidence to support how or if detected
their timetable for delivering modernized                 problems or defects were corrected.
systems given the immaturity of their
management processes.                                     Project teams have experienced problems in
                                                          implementing key systems development
Performance-based contracting processes                   processes. Project teams are having problems
have not been fully implemented. Although                 implementing and following key processes,
quality review processes had been established             such as requirements gathering, risk
to monitor contractor deliverables, most of the           management, and investment decision
task orders OA evaluated did not contain                  management.
incentives or disincentives to encourage
contractor timeliness and quality. While IRS can          OA found similar problems on non-BSM
withhold payment to the contractor until quality          projects. For example, the IRS’ project to
products are delivered, this option does not              consolidate its many mid-range systems was
provide any compensation for delays in                    not following any structured systems life cycle
delivering promised improvements to taxpayers.            methodologies, nor has IRS implemented a
Additionally, when quality problems were                  process to properly fund or monitor the project.
identified, IRS did not always require that the           These contributed to significant consolidation
contractor stop and address the problems                  risks, including inadequate staffing at the project
before progressing to the next project phase.             office and computing centers, insufficient
                                                          training for systems and database
Project monitoring processes have not                     administrators, and a delay in implementing an
adequately captured project cost                          automated disaster recovery process. Lastly,
information. Currently, actual costs are                  the consolidation of mid-range systems has
measured against estimated costs for the                  already encountered significant delays in
current phase (milestone) of the project rather           consolidating applications which, when
than the project’s full budget. In addition,              combined with the unresolved risks and project
accurate measurements of internal IRS costs               management issues, increase the likelihood of
are not included in project monitoring data, and          cost overruns and possible failure of the project
the measurement system has not been                       to achieve intended goals.
validated. Without an accurate accounting of all
project costs, it is difficult for IRS and Congress
to determine if a project is worth the investment.



10     TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
                                                                                           TIGTA's Results
                                                        1994, in accordance with the Federal
Returns Processing                                      Managers’ Financial Integrity Act,5 the IRS
                                                        reported this issue as a material weakness in
Tax law complexity is the highest-ranking IRS           its internal control system. As a result, the IRS
problem area faced by individual and business           established a goal to reduce its high number
taxpayers. It is further compounded as IRS              of erroneous restricted interest assessments.
proceeds with its multi-year computer
modernization effort. Some affected areas               While IRS has achieved some success in
include IRS’ internal processing procedures             increasing the automation of interest
and IRS’ communication of tax law changes to            calculations overall, IRS’ actions taken to
taxpayers through publications and notices.             address the material weakness have not been
                                                        effective. From CYs 1995 to 1999, the number
Audit highlights in these areas follow.                 of business accounts for which interest
                                                        calculations were restricted increased by
 The Internal Revenue Service Has                       more than 4,500. OA identified 35,580
                                                        business accounts that became restricted in
      Made Some Progress, But
                                                        1999 (12,792 with restricted interest
 Significant Improvements Are Still
                                                        transactions for zero dollars and 22,788 with
     Needed to Reduce Errors in                         restricted interest transactions containing
    Manual Interest Calculations                        dollar amounts). From a statistical sample of
    (Reference No. 2002-30-042)                         380 accounts, 44 percent (169 accounts)
                                                        contained errors in interest amounts
IRS employees must manually calculate                   computed by IRS employees. These accounts
interest on some accounts because the                   were unnecessarily restricted or contained
computer system is not programmed to apply              errors in interest amounts computed by IRS
numerous changes in laws, regulations and               employees, or both (see Figure 1 on page 12).
policies. This is referred to as “restricted            Based on the results of this sample, OA
interest” because the computer system is                estimated that, over a five-year period, the IRS
“restricted” from making the interest                   could overcharge some taxpayers over
computations. Over the years these changes,             $247 million in interest, and undercharge other
as well as the complexity of the calculations           taxpayers more than $145 million.
and supporting analyses, have increased the
number of accounts requiring restricted                 OA recommended that IRS management limit
interest calculations. Between Calendar Years           the calculation of restricted interest to
(CY) 1995 and 1999, over 198,000 business               centralized staffs within IRS functions and
tax accounts became restricted, totaling over           locations of IRS; establish a national quality
$7 billion in restricted interest assessments or        review process that includes all restricted
abatements.                                             interest cases; ensure employees receive
                                                        appropriate training before working on
Restricted interest calculations are very               restricted interest cases; authorize a standard
complex, time-consuming, and highly subject             interest computation tool; and explore all
to human error. Because it is well known that           available options to provide the technology and
the IRS makes a significant number of errors            programming necessary to allow more
in these calculations, accounting firms, law            computerized interest calculations to be
firms and others have actively marketed                 performed by computer.
consulting services to assist taxpayers in
recalculating interest and filing claims for            5
                                                         31 U.S.C. §§ 1105, 1113, and 3512 (1994 & Supp. IV
refunds of amounts incorrectly assessed. In
                                                        1998).




                                          TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   11
 TIGTA's Results
                                                             actions on frozen accounts. Instead of
                                                             implementing the recommendations as
                                                             agreed, IRS increased the threshold for
                                                             automatically freezing refunds from $1 million
                                                             to $10 million. However, increasing the
                                                             threshold did not correct the problem, and IRS
                                                             continues to pay millions of dollars in
                                                             additional interest to taxpayers with frozen
                                                             accounts.

                                                             This follow-up review of 412 frozen accounts
                                                             identified 209 (51 percent) improperly frozen
                                                             accounts that resulted in IRS eventually
                                                             issuing approximately $185.8 million in
                                                             refunds and paying taxpayers an additional
                                                             $15.4 million in interest. Table 1 shows a
                                                             comparison between the accounts identified
                                                             as frozen in the previous review and the
                                                             frozen accounts identified in this review.
IRS management agreed with the report
findings and proposed a number of creative
actions to address the problems identified in
the report.


    The Internal Revenue Service
    Continues to Owe Millions of
   Dollars in Interest to Taxpayers
        with Frozen Refunds
    (Reference No. 2002-30-062)

OA first reported in September 19996 that IRS
was experiencing problems in releasing large
dollar refunds because of the automatic
freeze placed on accounts containing a credit
balance of $1 million or more. Findings
                                                                      Source: Extracts from IRS' Masterfile on
included: (1) controls did not ensure that                              April 4, 1998 and March 31, 2001
frozen refunds were timely released, and
(2) additional interest of approximately
$17.5 million was paid to taxpayers with                      Two reasons why IRS’ corrective actions
frozen accounts.                                              were not effective were:

OA recommended that IRS change its                                •      Refunds can drop below the Million
computer system to systemically release                                  Dollar Freeze threshold, which is now
refunds that fall below the Million Dollar                               set at $10 million.
Freeze threshold and establish alerts for
employees to take appropriate resolution                          •      IRS employees are not always aware
                                                                         of the need to take appropriate
6
  Controls Should Be Strengthened Over Business                          resolution actions on accounts frozen
Taxpayer Accounts with Frozen Million Dollar Refunds
(Reference No. 199940057).                                               for extended periods.


12 TIGTA's
       TIGTA's FY 2002
           FY 2002     Semiannual
                   Semiannual     Report
                              Report     to Congress
                                     to Congress     ❍ March
                                                 ❍ March      31, 2002
                                                         31, 2002
                                                                                              TIGTA's Results
As reported in 1999, the Million Dollar Freeze             First, IRS did not accurately calculate the
indicator was not displayed on key computer                advance refund amount for some taxpayers.
screens used by employees to resolve                       OA alerted IRS to this condition on
problem accounts. In addition, the system did              July 3, 2001. The IRS timely addressed this
not generate periodic alert notices to                     problem, which included changing computer
employees on frozen accounts.                              programming. For all returns processed as of
                                                           July 5, the change prevented 535,000
OA recommended that IRS management                         taxpayers from receiving advance refunds
should initiate action to modify IRS’ computer             totaling at least $117.6 million more than the
system to systemically release refunds that                amount allowed by law. However, IRS’ initial
fall below the Million Dollar Freeze threshold             mail-out included advance refund notices that
and establish alert mechanisms for                         reflected amounts greater than the taxpayers
employees to take appropriate resolution                   would receive.
actions to correct the problem with frozen
refunds. Taking these actions will provide the             Second, 5.3 million taxpayers who timely filed
government an opportunity over a five-year                 their tax returns would have delays from one
period to put an estimated $12.9 million (an               to nine weeks in receiving their advance
average of $2.5 million a year) that it paid in            refund notices. These delays were due to the
interest to better use.                                    way IRS processed timely filed returns
                                                           received with payments that fully paid the
IRS management agreed with the findings in                 amount owed and the way programming was
the report and proposed a number of actions                developed to generate advance refund
to correct the problems identified.                        notices.

                                                           To address IRS' problem in calculating the
    While Most Taxpayers Received                          advance refund, OA recommended that IRS
         Accurate and Timely                               management correct the computer
     Notification of Their Advance                         programming problem, issue corrected
      Refunds, Millions Did Not                            advance refund notices to affected taxpayers,
     (Reference No. 2002-40-016)                           issue a press release informing the public
                                                           that advance refund notices with incorrect
This report presents the results of the initial            amounts were sent out, and update its
phase of OA’s reviews of the advance refund                Customer Service procedures. To address
provisions of H.R. 1836, also known as the                 the 5.3 million delayed advance refund
Economic Growth and Tax Relief                             notices, OA recommended that IRS
Reconciliation Act of 2001.7 This initial phase            management inform its employees and issue
was to determine whether IRS would timely                  a press release to advise taxpayers about the
and accurately notify taxpayers about their                advance refund notice delays. OA also
advance refunds. The IRS developed an                      recommended that IRS management change
extensive plan, implemented new computer                   the programming used to generate the
programming, and hired a private vendor to                 advance refund notices to prevent additional
print and mail more than 120 million advance               delays.
refund notices. While this significant
accomplishment was performed in a very                     IRS management agreed and took immediate
limited amount of time, OA identified two                  corrective action on all the recommendations,
problems that affected the calculation of the              except to change the programming used to
advance refunds and the timely issuance of                 generate the advance refund notices. IRS
the advance refund notices.                                management stated that to help minimize the
7
                                                           risk of any errors occurring, the programming
 Economic Growth and Tax Relief Reconciliation Act
of 2001, Pub. L. No. 107-16, 115 Stat. 38.                 would not be changed. OA understood the


                                             TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   13
TIGTA's Results
potential for error and accepted IRS’ reasons               specifically disagree with the second
for not changing the programming.                           recommendation, it indicated that the
                                                            development of software packages is not
                                                            within the purview of the IRS. However, IRS
     Improvements Need to Be                                management stated that they would work
        Made to Publications                                closely with the private sector as they develop
      and Instructions to Assist                            tax preparation software by providing current
 Taxpayers in Successfully Signing                          and accurate information.
 Their Tax Returns Electronically
   (Reference No. 2002-40-046)
                                                            Compliance
In an effort to move towards paperless tax
return filing, IRS successfully implemented                 The IRS’ goal of providing world-class service
the Self-Select Personal Identification                     to taxpayers hinges on the theory that, if the
Number (PIN) Program in Filing Season                       IRS provides taxpayers with the right mix of
2001. This program enabled nine million of                  education, support, up-front problem solving,
the 35 million taxpayers who filed an                       and targeted enforcement, the overall rate of
electronic tax return to sign their tax returns             voluntary taxpayer compliance with the tax
electronically. However, for Filing Season                  laws will increase. The challenge to IRS
2001, one-quarter of the tax returns submitted              management is to establish a tax compliance
with electronic signatures were rejected                    program that identifies those citizens who do
because the authentication information the                  not meet their tax obligations, either by not
IRS required taxpayers to provide (e.g., name               paying the correct amount of tax or by not
and date of birth) did not match IRS’ records               filing proper tax returns.
for the taxpayer. The publications and
instructions for taxpayers’ to use when                     Audit highlights in this area follow.
signing tax returns electronically contained
inaccurate, inconsistent and unclear
information.                                                     Interim Actions Can Be Taken to
                                                                     Determine Partnerships’
OA recommended that IRS management:                              Compliance in Withholding Taxes
(1) create a quality review process for the                            on Foreign Partners
Self-Select PIN Program to ensure guidance                         (Reference No. 2002-30-076)
is appropriate to enable electronic signatures,
(2) develop procedures to ensure tax                        I.R.C. § 1446 requires partnerships to
guidance in electronic tax return preparation               withhold taxes on effectively connected
software packages is accurate and clear, and                income allocable8 to foreign partners.
(3) follow the oversight review and approval                "Effectively connected income" is taxable
process for preparing and revising electronic               income connected with the conduct of a trade
filing guidance.                                            or business in the U.S. The number of U.S.
                                                            partnerships with foreign partners increased
IRS management agreed with the first and                    from about 22,000 in 1995 to over 30,000 in
third recommendations and has already                       1999, an increase of more than 36 percent.
implemented corrective actions. A process
for the development and approval of public
information already existed, but was not
previously published as an employee guide.                   8
                                                               The provision applies to allocable income,
The IRS will follow this established process in              regardless of whether distributions were made during
the future. While IRS management did not                     the partnership’s tax year.



14     TIGTA's
 14 TIGTA's    FY 2002
            FY 2002    Semiannual
                    Semiannual    Report
                               Report    to Congress
                                      to Congress    ❍ March
                                                  ❍ March 31,31, 2002
                                                              2002
                                                                                             TIGTA's Results
In FY 2001, OA issued a report that discussed               facing an economic hardship situation. As a
the increasing population of partnerships with              result, Congress included a provision in
foreign partners and concluded that IRS                     RRA 98 that added I.R.C. § 6343(e) (1999)
should enhance programs to ensure                           requiring the IRS to release a wage levy as
partnerships’ compliance with the withholding               soon as practicable upon agreement with the
provisions.9 The report recommended taking                  taxpayer that the tax is not collectible. In
interim measures to identify potentially non-               addition, I.R.C. § 6343(a) requires IRS to
compliant partnerships until permanent                      release all levies when it determines that the
programming changes could automate the                      levy is creating an economic hardship due to
process.                                                    the financial condition of the taxpayer.

In this follow-up report, OA determined that                OA determined that IRS is not always
sufficient information existed in the IRS’                  releasing levies as required. OA identified
computer systems to take interim action and                 cases in which IRS received levy payments
begin a process to determine partnerships’                  after the case was closed as a Currently Not
compliance with withholding requirements.                   Collectible (CNC) (hardship) case. In
Also, IRS could better use information on                   addition, OA identified cases that should not
income and foreign partners from                            have been a closed CNC (hardship) because
partnerships’ tax returns and the withholding               IRS either did not determine that an
information documents that partnerships                     economic hardship existed or appeared to
separately file to more effectively identify                disregard the taxpayer’s ability to make
potential non-compliance.                                   payments. Finally, OA identified numerous
                                                            cases that had non-levy payments
OA recommended that IRS contact a sample                    erroneously recorded as levy payments on
of taxpayers to determine whether there are                 IRS’ management information system.
compliance issues with the withholding
provisions, and use our methodology as an                   OA recommended that the IRS improve
interim measure until an automated                          controls to ensure IRS personnel recognize
identification process is developed.                        levies at the time a case is closed CNC
                                                            (hardship) and release levies as required.
IRS management’s response was not                           IRS should strengthen procedures to ensure
received prior to the issuance of the audit                 cases are closed as CNC (hardship) only
report.                                                     when appropriate. Also, the IRS should
                                                            clarify guidelines to ensure payments
                                                            received by IRS personnel are accurately
     The Internal Revenue Service’s
                                                            recorded on IRS’ computer system.
    Levy Process Can Be Improved to
        Ensure Compliance With                              IRS management agreed with the
       the Internal Revenue Code                            recommendations and is taking corrective
      (Reference No. 2002-10-078)                           actions.

Congress believed that taxpayers should not
have collection activity taken against them                 Earned Income Credit
once the IRS has determined that any tax
owed is uncollectible because a taxpayer is                 Both the President and Congress have
                                                            expressed concern with the large number of
9
 Stronger Actions Are Needed to Ensure Partnerships         erroneous payments made annually by
Withhold and Pay Millions of Dollars in Taxes on
Certain Income of Foreign Partners (Reference
                                                            federal agencies. Although many IRS
No. 2001-30-084, dated June 2001).                          programs are susceptible to erroneous


                                             TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   15
TIGTA's Results
payments and potential fraud, particularly                      Better Controls Are Needed to
vulnerable is the IRS’ administration of the
                                                               Ensure Appropriated Funds Are
Earned Income Credit (EIC) Program.
                                                              Used to Improve the Application of
Audit highlights in this area follow.                             the Earned Income Credit
                                                                (Reference No. 2002-40-020)
 Earned Income Credit Was Paid to                            Congress has been concerned with IRS’
  Taxpayers Who Did Not Provide                              ability to administer the EIC. In 1997,
 Required Documentation During                               Congress enacted legislation10 that authorized
Audits (Reference No. 2002-40-004)                           the IRS to spend $716 million over a five-year
                                                             period for the improved application of the EIC.
EIC is a refundable tax credit created in 1975               The five-year period began in FY 1998. Each
to offset the impact of Social Security taxes                year, IRS spends over $100 million
on low-income families and encourage them                    appropriated by Congress. The IRS
to seek employment rather than welfare. In                   established the EIC Program Office to
CY 2000, a total of 19,226,015 taxpayers                     administer the EIC appropriation and oversee
received the EIC. While the IRS does not                     the EIC-related activities of IRS functions
question most EIC claims, in FY 2000 it                      involved in efforts to ensure the efficient
completed 325,654 audits and recommended                     application of the law; to increase participation
over $411 million in additional taxes where EIC              of eligible taxpayers; and to reduce fraud,
claims were in question. Audits of EIC claims                waste, and abuse.
represented 74 percent of the total audits
completed by IRS’ Remote Examination                         Each year, the Program Office develops a
function during the fiscal year.                             plan that outlines how the EIC funds will be
                                                             used. However, IRS did not have an effective
OA identified that taxpayers did not receive                 process in place to ensure that the
consistent treatment when IRS audited their                  expenditure of the EIC appropriation was used
EIC claims. Specifically, some taxpayers were                only for EIC issues, programs, and projects.
allowed the EIC without having to provide                    OA’s analysis of the total labor expenses for
required documentation during the audit to                   two IRS functions and a judgmental sample of
justify their EIC claim. This occurrence was                 the IRS’ equipment purchases for FY 2000
the result of inadequate managerial case                     and the first quarter of FY 2001 identified
reviews designed to ensure consistency and                   approximately $28 million in questionable
accuracy of audits.                                          expenses.

OA recommended that IRS management                           The IRS is scheduled to receive $146 million
should develop expectations that case                        in EIC funds in FY 2002, the last year of the
reviews will be completed and establish a                    current five-year appropriation. Without
process to ensure these reviews are done                     effective controls in place to assure Congress
timely. IRS management agreed with the                       that the funds are being spent appropriately,
recommendation and took appropriate                          IRS is at risk that future appropriation funding
corrective action.                                           beyond FY 2002 could be in jeopardy. OA
                                                             recommended that IRS management
                                                             establish procedures to ensure that funds
                                                             appropriated by Congress for the improved
                                                             application of the EIC are used for that
                                                             purpose.
                                                             10
                                                              The Balanced Budget Act of 1997, Pub. L.
                                                             No. 105-33, 111 Stat. 251.


1616 TIGTA's
        TIGTA's
             FY FY 2002
                2002    Semiannual
                     Semiannual    Report
                                Report    to Congress
                                       to Congress    ❍ March
                                                   ❍ March 31,31, 2002
                                                               2002
                                                                                            TIGTA's Results
While IRS management took some corrective                 •   There was inconsistency in the IRS’
action, OA believes the corrective action only                methodology applications between
strengthened controls for the functions’                      studies.
requests and authorizations to expend EIC
appropriation funds. The corrective action                •   Emphasis on EIC taxpayers with business
does not include provisions for conducting                    income during the TY 1999 EIC
periodic reviews of actual functional EIC                     compliance study increased the time
expenditures to ensure they are EIC related                   spent on the audits, but did not produce
and, therefore, should be paid from EIC                       any apparent benefits.
appropriation funds. OA believes these
reviews are critical to ensuring EIC funds are            •   Poor planning caused taxpayers to be
used for EIC purposes.                                        needlessly audited as part of the TY 1998
                                                              EIC compliance study.
IRS management disagreed with OA’s
reported outcome that $28 million of EIC                  IRS management disagreed with OA’s
appropriation funds were used for                         recommendations that there were significant
questionable labor and equipment purchases.               weaknesses in its methodology for measuring
However, they did agree with OA’s statements              EIC compliance and questioned the relevance
that not all the expenses OA reviewed were                of the audit recommendations. IRS
directly related to the EIC. Therefore, until IRS         management stated that improvements have
has sufficient information to determine how               been made to the EIC program due to the
much of these items are directly related to               results of its current measurement
EIC, OA believes its outcome measure is still             methodology and compliance efforts.
valid.
                                                          In OA’s opinion, IRS' response did not
                                                          adequately support the disagreement with
    There Are Significant Weaknesses                      OA’s assessment of the EIC compliance
    in the Internal Revenue Service’s                     measurement methodology. OA recognizes
        Efforts to Measure Earned                         that several initiatives have been made over
        Income Credit Compliance                          the past few years to improve the
      (Reference No. 2002-40-021)                         administration of the EIC program. However,
                                                          the majority of the improvements listed in the
IRS originally planned to measure EIC                     IRS response were not the result of its current
compliance levels annually. The audit results             efforts at measuring EIC compliance.
were to provide a baseline for comparing
                                                          At the time of OA’s review, IRS had issued
measurements from subsequent years. The
                                                          only one report as a result of its last three EIC
basis for the compliance levels would come
                                                          compliance studies. That report, Compliance
from annual audits of tax returns claiming the
                                                          Estimates for Earned Income Tax Credit
EIC.
                                                          Claimed on 1997 Returns, was issued more
While IRS made some improvements in its                   than two years after most of the audits in the
methodology to measure EIC compliance                     study were completed. Since OA's review
from Tax Year (TY) 1997 to TY 1999,                       was completed, a second report, Compliance
significant weaknesses still exist. Specifically:         Estimates for Earned Income Tax Credit
                                                          Claimed on 1999 Rates, was issued in
•    Some audits in the TYs 1997 and 1999                 February 2002.
     EIC compliance studies lacked the
     necessary information to support the IRS’
     results.



                                            TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   17
TIGTA's Results
                                                             judgment with respect to tax enforcement
Government Performance                                       results. It also forbids establishing goals for
and Results Act                                              individual employees based on records of tax
                                                             enforcement results. As such, CI’s business
Congress passed the Government                               results measures are not outcome oriented
Performance and Results Act of 1993                          and do not accurately show the results of CI’s
(GPRA)11 to increase agency accountability                   activities.
and improve the quality and delivery of
                                                             CI also did not have a measure for its refund
government services. GPRA holds federal
                                                             fraud program, a major management
agencies accountable for program results by
                                                             challenge for IRS. CI measured its outreach
emphasizing goal setting, customer
                                                             efforts (activities to educate the public about
satisfaction, and results measurement.
                                                             CI and the consequences of violating the tax
TIGTA performed the following reviews as part                laws) by the staff years spent on those efforts.
of its strategy to assess IRS’ compliance with               It's case quality review measure includes only
GPRA.                                                        discontinued and non-prosecution cases with
                                                             no grand jury involvement (about 27 percent of
                                                             the total CI workload), and excludes the cases
 GPRA: Criminal Investigation Can                            with the most impact on taxpayers. The CI
Improve Its Performance Measures                             customer satisfaction survey was sent only to
  to Better Account for Its Results                          U.S. Attorneys and did not include the
   (Reference No: 2002-10-009)                               Department of Justice Tax Division Attorneys.

The IRS’ Criminal Investigation (CI) has a                    OA was not allowed access to the Criminal
budget of $395 million and a staff of                        Investigation Management Information
approximately 3,700 special agents and                       System (CIMIS),13 the source of most of CI’s
support personnel. CI’s mission is to serve the              performance measures. While not able to
American public by investigating potential                   validate the CIMIS data, OA determined that
criminal violations of the Internal Revenue                  system audit trails were not complete and
Code and related financial crimes in a manner                were not effectively used, creating a potential
intended to foster confidence in the tax                     security risk.
system and compliance with the tax law. OA
                                                             OA recommended that measures be
identified that CI’s performance measures do
                                                             developed, such as the number of individuals
not address its mission and that only the
                                                             indicted, convicted, and sentenced; CI’s effect
number of cases initiated was included in IRS’
                                                             on voluntary compliance and the tax gap; the
GPRA measures.
                                                             results of major programs like refund fraud;
CI developed outcome-neutral measures12 to                   and the results of a quality review process that
report as its business results because of its                includes all cases. Also, CI should consider a
concern about 26 CFR Part 801. This                          survey to assess CI’s outreach efforts; ensure
regulation prohibits using quantity measures                 that audit trail requirements are met and
to impose or suggest production goals for any                documented; and fully disclose CIMIS data
organizational unit whose employees exercise                 limitations.

11
                                                             IRS management disagreed with five of the
  Government Performance and Results Act of 1993
(GPRA), Pub. L No. 103-62,107 Stat. 285 (codifed, as         nine recommendations in the report. IRS
amended in scattered sections of 5 U.S.C., 31 U.S.C.,
and 39 U.S.C.)
                                                              13
12                                                              CIMIS is a computer database used to inventory,
  Measures that do not contain information regarding
                                                              control, and track the progress of CI investigations.
tax enforcement results.


18     TIGTA's
 18 TIGTA's    FY 2002
            FY 2002    Semiannual
                    Semiannual    Report
                               Report    to Congress
                                      to Congress    ❍ March
                                                  ❍ March 31, 31,
                                                              20022002
                                                                                           TIGTA's Results
management did not agree to expand CI                    •    Conduct the required managerial reviews
business results measures; establish                          of the work performed by quality reviewers
measures to assess CI’s impact on non-                        and perform the on-line, joint-monitoring
compliance and the tax gap; better measure                    aspect of these reviews remotely so that it
the effectiveness of CI’s outreach efforts; and,              can be done in an independent setting.
disclose the limitations affecting the accuracy
of CIMIS data or to expand the quality review            •    Develop an automated call recording
process.                                                      system to measure the accuracy of tax
                                                              law assistance that ensures that all tax
                                                              law calls are included in the population,
The Internal Revenue Service Could                            the selection of calls is truly random, and
    Improve Its Process to More                               the sampling plan is implemented as
Reliably Measure the Accuracy of Its                          designed.
   Toll-Free Tax Law Assistance
   (Reference No. 2002-40-051)                           IRS management agreed with the audit
                                                         recommendations and has initiated corrective
Design and implementation weaknesses in                  actions where possible. IRS management
the current sampling strategy used to                    could not develop corrective actions for
measure the accuracy of IRS toll-free tax law            managerial reviews of quality reviewers due to
assistance had the potential to bias the                 telephone system limitations. IRS
accuracy of the results. The 73.78 percent               management strengthened controls to ensure
accuracy rate that IRS reported for the 2001             that each Centralized Quality Review Site
Filing Season may not be accurate. A different           (CQRS) manager meets minimum monitoring
rate may influence management decisions                  standards. In addition, while IRS management
concerning assignment and training of                    agreed that an automated call recording
customer service personnel, which could                  system is the best way to achieve random call
affect IRS budget decisions.                             selection, they pointed out that the IRS is not
                                                         technologically able to do so at this time. The
OA noted that managerial reviews were not                IRS is aggressively pursuing automated call
conducted as required at critical periods                recording. Lastly, the telephone equipment
during the 2001 Filing Season, and they were             used by the CQRS staff cannot track
not conducted in an independent setting.                 disconnected calls.

OA recommended that IRS management:
                                                         Federal Financial
•   Design the sampling plan to include all tax
    law calls in the population and randomly             Management Improvement
    select from all hours of all call site               Act14
    operations.
                                                         The Federal Financial Management
•   Ensure the sampling plan is implemented
                                                         Improvement Act of 1996 (FFMIA) mandates,
    as designed, the latitude of reviewers to
                                                         among other things, that agencies
    select and disconnect calls (in terms of
    both application and call site) is limited,               “…implement and maintain financial
    and the required number of calls is                       management systems that comply
    reviewed at critical times during the filing              substantially with Federal financial
    season.                                                   management systems requirements,
                                                         14
                                                           Federal Financial Management Improvement Act of
                                                         1996, 31 U.S.C. § 3512.



                                           TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   19
TIGTA's Results
                                                            No instances were found where the IRS did
     applicable Federal accounting
                                                            not meet established intermediate target
     standards, and the U.S. Government
                                                            dates contained in the remediation plan. OA
     Standard General Ledger at the
                                                            did identify where intermediate target dates
     transaction level.”
                                                            were extended with reasonable explanations.
FFMIA also requires that remediation plans be               Also, the IRS received required Office of
developed for any entity that is unable to report           Management and Budget concurrence for
substantial compliance with these                           remedial actions with intermediate target
requirements. OA’s evaluation of IRS’                       dates that extend longer than three years;
remediation plans follows.                                  incorporated all GAO financial statement
                                                            audit recommendations pertinent to the
                                                            FFMIA guidelines into its remediation plan;
   Management Advisory Report:                              and, has taken actions to reconcile
       The Internal Revenue                                 inconsistencies between GAO and IRS
    Service’s Federal Financial                             reported status of remedial actions. The IRS
   Management Improvement Act                               has also taken positive steps to implement
  Remediation Plan Complies With                            corrective actions addressing prior OA
     Reporting Requirements                                 recommendations.
   (Reference No. 2002-10-069)

OA conducted a review of IRS’ FFMIA
remediation plan to identify any instances and
reasons for missed intermediate target dates,
and to evaluate whether the IRS is meeting its
responsibilities in fulfilling the intent of the
FFMIA. This review was performed to meet
OA’s requirement under the FFMIA that each
IG shall report to Congress instances and
reasons when an agency has not met the
intermediate target dates established in the
remediation plan.




20     TIGTA's
 20 TIGTA's    FY 2002
            FY 2002    Semiannual
                    Semiannual    Report
                               Report    to Congress
                                      to Congress    ❍ March
                                                  ❍ March 31,31, 2002
                                                              2002
       TIGTA Strategic Goal: Detecting and Deterring
          Fraud in IRS Programs and Operations


TIGTA is responsible for conducting                     conjunction with field interviews, resulted in
investigations and audits to help prevent,              the indictment of the IRS employee on seven
detect, and deter fraud and abuse in IRS                counts of computer fraud and unlawful
programs and operations. This includes                  inspection of tax return information. The
investigating allegations of misconduct by IRS          employee subsequently resigned from IRS.
employees; protecting IRS against external
attempts to corrupt or threaten its employees;
and performing reviews of activities related to
                                                         Former IRS Employee Indicted for
fraud, waste, abuse, and mismanagement of                     Converting Property
IRS and related entities, such as the IRS
Oversight Board and IRS Chief Counsel.                  A grand jury indicted a former IRS employee
TIGTA’s work serves as a deterrent against              on seven counts of converting taxpayers'
those contemplating illegal actions that would          property. According to the indictment, the
undermine the integrity of federal tax                  former employee embezzled $32,583 by
administration.                                         electronic transfer of funds from taxpayers'
                                                        original tax returns to accounts belonging to
                                                        the employee.
Internal Fraud
                                                          IRS Employee Arrested by TIGTA
OI conducts investigations that protect                   Special Agents for Solicitation of
taxpayers from IRS employees who commit                           $200,000 Bribe
criminal violations and administrative
misconduct. These inquiries may involve                 In December 2001, an attorney representing a
allegations of unauthorized access to and               corporation reported that during a routine IRS
disclosure of confidential taxpayer information,        examination, an IRS employee solicited a
bribery, financial fraud, false statements and          cash bribe of $200,000 from the company's
abuse of taxpayer rights.                               attorney to reduce the company's tax liability.
                                                        The attorney subsequently agreed to
Investigative highlights in this area follow.           cooperate with TIGTA in its investigation.

                                                        In January 2002, with assistance from TIGTA’s
  A Twenty-Two Year IRS Veteran
                                                        TSS, an electronically recorded meeting took
 Charged with Unauthorized Access                       place between the attorney and the employee.
   (UNAX) to Taxpayer Accounts                          After receiving the $200,000 bribe, the IRS
                                                        employee provided the attorney with a
As a result of a UNAX violation, an IRS                 fraudulent Revenue Agent Report. TIGTA
employee pled guilty to one count of computer           special agents arrested the IRS employee
fraud and was sentenced to two years                    before the employee left the meeting.
probation, fined $5,000 and ordered to
perform 100 hours of community service.
After the employee’s spouse was fired from a
private company, it was determined that the
employee made numerous accesses to the
tax accounts of the spouse’s co-workers and
executives of the company. These findings, in


                                          TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   21
TIGTA's Results
                            The Strategic Enforcement Division

Strategic Enforcement Division (SED) is an                     Since October 2001, CIS special agents have
entire division within TIGTA's OI that is devoted              conducted forensic examinations in 56 TIGTA
to computer criminology. It is comprised of                    investigations, reviewing 141 devices containing
three components with distinct and                             872 gigabytes of storage space.
complementary missions. A collaborative effort
of special agents, forensic data analysts, and                 System Intrusion Network Response Attack
computer programmers assigned to SED                           Team (SINART) is another SED unit in which
Cincinnati Operations execute proactive                        assigned agents and computer programmers
programs to detect internal fraud in IRS                       investigate attempts to interfere with the
operations and unauthorized access to IRS                      security, integrity, and reliability of IRS
computer systems. Computer matching is used                    computers by external sources.
nationwide in proactive initiatives. These
initiatives are included in Computer Matching                  Since October 2001, SINART special agents
Act16 agreements approved by Treasury’s Data                   and computer specialists have conducted nine
Integrity Board and published in the Federal                   computer security reviews and 17 criminal
Register.                                                      investigations. Additionally, SINART special
                                                               agents and computer specialists have:
During this period, there were six ongoing
initiatives, and 19 criminal referrals to field                     ✓ Participated with the IRS Computer
special agents for further investigation.                             Security Incident Response Team in a
                                                                      penetration test designed to evaluate
Computer Investigative Specialist Program                             the security controls in place within the
(CIS) is a unit of SED that provides support and                      www.irs.gov environment. The tests
advice concerning the search and seizure of                           were conducted to ensure the
computers and computer-related media; the                             confidentiality, integrity, and availability
processing of seized electronic evidence; and                         of data over the networks, and to gauge
assistance with Internet-related crimes and                           the new IRS website’s ability to
investigations. Agents assigned to the                                withstand Internet-based attacks. The
Computer Investigative Support Program                                penetration test team used common foot
provide forensic processing of seized                                 printing and attacks utilized by hackers,
computers and other electronic media in                               including remote procedure calls, telnet,
support of TIGTA investigations.                                      and other exploitations. The
                                                                      penetration test results were reported to
                                                                      the IRS Office of Cyber Security.

                                                                    ✓ Established proactive initiatives to
                                                                      evaluate the IRS network for specific
                                                                      vulnerabilities, including an initiative
                                                                      designed to identify unauthorized
                                                                      wireless network access technology on
                                                                      IRS and TIGTA networks. Wireless
                                                                      scans of several IRS facilities have been
                                                                      completed. Another initiative was
                                                                      launched to identify unauthorized
                                                                      connections to IRS computers through
                                                                      unregistered modems. A total of 33
                                                                      modems were identified. Each modem
                                                                      was investigated to determine the extent
                                                                      of vulnerability. The results of SINART
                                                                      proactive initiatives are provided to the
16
     Pub. L. No. 101-56, 103 Stat. 149 (1989)                         IRS Office of Cyber Security.

22        TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
                                                                                        TIGTA's Results

   IRS Employee Pled Guilty to                         participation in a mental health treatment
  Knowingly Possessing Visual                          program. The former employee was ordered
                                                       to pay restitution of $11,648.
 Depictions of Minors Engaged in
    Sexually Explicit Conduct
                                                             IRS Employee Pled Guilty to
An IRS internal review identified an                          Embezzling Tax Payments
employee who accessed sexually explicit
websites using government time and                     In May 2001, an IRS employee was
equipment. Examination of the employee’s               discovered to have received a $2,800 cash
computer hard drive revealed 30,664                    tax payment from a taxpayer and then
graphics files. Most of the graphics were              gambled and lost that money at a local
pornographic or sexually explicit in nature            casino. During a subsequent interview by
and numerous images were classified as                 TIGTA special agents, the employee admitted
child pornography. The employee pled guilty            to collecting cash from taxpayers and using
to knowingly possessing visual depictions of           the money to gamble. IRS records revealed
minors engaged in sexually explicit conduct.           that during the six-month period prior to the
In October 2001, the employee signed a pre-            $2,800 embezzlement, the IRS employee
trial diversion agreement and prosecution              delayed processing an additional $9,040 in
was deferred 18 months.                                cash payments.

                                                       After pleading guilty to one count of
 Former IRS Employee Pled Guilty                       embezzlement in January 2002, the
to Misuse of IRS Computer System                       employee was sentenced to three years
 and Improper Relationships with                       probation, and ordered to pay $2,800 in
            Taxpayers                                  restitution to IRS. Administrative action is
                                                       currently pending.
In November 2001, a former IRS revenue
officer was charged with allegedly accepting
gifts from different taxpayers, including              External Fraud
approximately $1,000 in cash, a television
set, free health club privileges, free auto            OI is responsible for protecting against
repairs, and free garage door repairs, for a           external attempts to corrupt the IRS, its
payment plan of taxes and abatement of                 employees, facilities and data systems.
penalties owed by the taxpayers totalling              OA is responsible for conducting audit and
$158,741.                                              investigative activities designed to prevent,
                                                       detect and deter external fraud and abuse
The former employee also was charged with
                                                       impacting IRS programs and operations and
allegedly accessing an IRS computer
                                                       to recommend remedial actions.
without authorization and thereby obtaining
information from the IRS and with allegedly            Audit and investigative highlights follow.
failing to deposit money of the United States
under his control. The former IRS employee
pled guilty to all three counts and in March
2002, was sentenced to four months
imprisonment, supervised release for two
years, home detention for 120 days and




                                        TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   23
TIGTA's Results
                                                               computer analysis of TY 2000 tax returns.
  Management Advisory Report:
                                                               From TY 1999 to TY 2000, the number of tax
   Significantly More Individual                               returns for which the Disabled Access Credit
Taxpayers Inappropriately Received                             was inappropriately allowed increased
      Disabled Access Credits                                  28 percent. The amount of credit allowed on
 for Tax Year 2000 Than for 1999                               these returns totaled over $1.25 million. OA
   (Reference No. 2002-30-048)                                 also determined that 64 taxpayers
                                                               inappropriately received the credit for both
In September 2001, OA reported16 that                          TYs 1999 and 2000.
individual taxpayers were inappropriately
receiving tax credits on their TY 1999 U.S.                    As of January 2002, IRS was on schedule to
Individual Income Tax Returns (Form 1040).                     add information to its Small Business/Self
These taxpayers received the Disabled                          Employed Community Website to alert
Access Credit (a business incentive credit                     taxpayers about investments in pay
intended to help eligible small businesses                     telephones and automated teller machines
comply with the requirements of the                            fraudulently promoted as qualifying for the
Americans with Disabilities Act)17 even though                 Disabled Access Credit.
their tax returns indicated no business
reasons for taking the credits. Although the                   IRS management also agreed to work on
number of taxpayers involved was limited, the                  another enhancement to the IRS’ website that
issue was significant for two reasons:                         would provide links from other sections of
                                                               IRS’ website to the text in the Small
•    Many of the taxpayers involved were                       Business/Self-Employed section.
     elderly Americans who were possible
     victims of promoters recommending                         As no formal recommendations were made
     unwise investments in pay telephones and                  in this report, an IRS management response
     automated teller machines and promising                   was not required.
     bogus tax credits.

•    Based on the media coverage the issue                        Computer Programming Can be
     had received,18 OA believed the problem                       Used to More Effectively Stop
     was most likely increasing.                                     Refunds on Illegal Claims
                                                                      for Reparations Credits
One of the recommendations in a prior report                       (Reference No. 2002-30-071)
was for IRS to analyze the results of a
computer analysis completed by OA for                          Since the early 1990s, thousands of
TY 1999 returns, perform a similar analysis of                 taxpayers have filed specious tax claims with
TY 2000 returns, and develop a compliance                      the IRS for reparations credits payable to
approach to address this issue. To facilitate                  descendants of slaves. The Internal Revenue
IRS’ corrective action, OA agreed to perform a                 Code does not provide for, or allow, such a
                                                               credit. As a result, the IRS tries to identify tax
16
  Some Individual Taxpayers Are Inappropriately                returns containing these claims, deny the
Receiving Tax Credits Intended for Businesses That
                                                               claims, and stop any resulting refunds before
Provide Access for Disabled Americans
(Reference No. 2001-30-158).                                   they are issued to taxpayers. IRS employees
17
  Americans with Disabilities Act (ADA), 42 U.S.C.
                                                               manually identify the vast majority of these
§§ 12101-12213 (1994 & Supp. IV 1998).                         claims before any data is input to the IRS’
18
  Noelle Knox and Greg Farrell, “Seniors Lose Big in           computer systems. For example, during
Risky Deals Through Insurance Agents,” USA Today               CY 2001, IRS employees manually identified
(February 28, 2001).                                           close to 80,000 such claims. Because the



24     TIGTA's
 24 TIGTA's    FY 2002
            FY 2002    Semiannual
                    Semiannual    Report
                               Report     to Congress
                                      to Congress     ❍ March
                                                  ❍ March  31, 31,
                                                               20022002
                                                                                          TIGTA's Results
manual screening of tax returns by IRS                 allow those employees to stop refunds from
employees is subject to human error, and               being issued during accelerated returns
because some employees may knowingly                   processing cycles.19
allow these illegal claims to be processed,
some invalid claims for reparations credits are        IRS management agreed with the
processed and refunds sent to taxpayers.               recommendations and initiated appropriate
                                                       corrective actions.
Early in CY 2001, IRS found that this was
occurring more often. Many taxpayers
claiming reparations credits had received                    Significant Efforts Have Been
refunds, some of which exceeded $80,000 for                 Made to Combat Abusive Trusts,
married taxpayers claiming reparations                       But Additional Improvements
credits for each spouse. As a result,                       Are Needed to Ensure Fairness
management from IRS’ Frivolous Return                         and Compliance Objectives
Program asked OA to help improve IRS’                                Are Achieved
controls by developing a computer program to                 (Reference No: 2002-30-050)
identify tax returns being processed that
contained claims for reparations credits.              The IRS anticipates that almost 3.7 million
                                                       U.S. Income Tax Returns for Estates and
Overall, the controls designed by IRS to               Trusts (Form 1041) will be filed for CY 2001.
identify and stop claims for reparations               Trust returns are now the third most frequently
credits from refunding, once the claims were           filed income tax return, behind individual and
entered into IRS computers, could be                   corporate returns. An abusive trust
significantly improved by using an                     arrangement generally involves a promoter
OA-developed computer program. OA                      who claims that owners are allowed to both
estimated that by using this program, IRS              retain full benefit of business or personal
employees could identify 91 percent more of            assets, and reduce or eliminate taxes.
the returns that made it through the initial
manual screening than they could using the             Since 1997, IRS has made significant efforts
existing processes, and stop an additional             to combat abusive trusts. Abusive trust issues
$90.7 million in refunds from claims for               are being addressed through a nationally
reparations credits over a five-year period.           coordinated strategy that includes the IRS CI
Further, OA identified current and former IRS          function, the Small Business/Self-Employed
employees who claimed reparations credits              Division’s Compliance function, the Office of
on their own tax returns. Pertinent                    Chief Counsel, and the Department of Justice.
information regarding these individuals was            The IRS has emphasized the identification of
referred to OI.                                        abusive trust promotions and the use of civil
                                                       and criminal enforcement actions. Further,
OA recommended that IRS management                     IRS has increased its examinations of Forms
permanently implement and maintain the                 1041 from 567 in FY 1997 to over 4,400
computer program developed by OA and                   returns in FY 2000. These additional
ensure that employees assigned to the
Frivolous Return Program are given access to           19
                                                          The IRS must process individual refund returns
and training regarding a computer command              within 45 days of the return due date to avoid paying
code. This command code is under                       interest. To minimize interest payments, the IRS
development for the CI function. It will               accelerates its processing routines during the weeks
                                                       before the 45-day deadline to ensure returns are
                                                       timely processed. The IRS saved almost $9 million in
                                                       interest by accelerating processing in certain weeks
                                                       of its 2001 Filing Season.



                                         TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   25
TIGTA's Results
examinations yielded a substantial increase in                noncompliance, because these taxpayers
proposed tax assessments, averaging                           may simply move to other abusive
$104,000 per return. Table 2 shows that IRS                   arrangements.
tax assessments involving abusive business
trusts and related returns increased from                     One of the methods that the IRS’ National
$8 million in FY 1997 to over $467 million in                 Trust Initiative uses to accomplish its primary
FY 2000.                                                      goal of combating abusive trusts is pre-filing
                                                              and outreach activities. However, IRS does
However, additional improvements are                          not have performance measures to determine
needed in the program to ensure that IRS                      if its pre-filing and outreach activities are
achieves its goal of combating abusive trusts.                increasing taxpayer compliance. Finally, IRS
OA’s review of abusive trust-related returns                  does not have a system to capture results of
examined and closed during the first quarter                  Form 1041 examinations that would identify
of FY 2001 showed that IRS may not be                         emerging abusive trust issues.
consistently asserting the accuracy-related
penalty. The IRS assessed the                                 OA recommended that IRS management
accuracy-related or fraud penalty in only                     develop new penalty tables to monitor the
26 percent of a sample of these cases. If the                 application of the accuracy-related penalty
IRS assessed the accuracy-related penalty                     and develop a system to capture Form 1041
based on the additional tax assessments of                    examination data.
$467 million, penalty assessments could
range from an estimated $69.1 to $138.2                       IRS management agreed to the
million over a two-year period. There is a risk               recommendations and is proposing a number
that not penalizing taxpayers involved with                   of actions to address the problems identified
abusive trusts could result in further                        in the report.




            Source: Project Code 233 Analysis as of September 2000 provided by the National Trust



26     TIGTA's
 26 TIGTA's    FY 2002
            FY 2002    Semiannual
                    Semiannual    Report
                               Report     to Congress
                                      to Congress     ❍ March
                                                  ❍ March  31, 31,
                                                               20022002
                                                                                         TIGTA's Results

    Federal Requirements Need                          OA recommended that the Lockbox
     Strengthening at Lockbox                          Processing Guidelines be strengthened or
  Banks to Better Protect Taxpayer                     clarified in the following areas: adding
                                                       controls for mail delivered by courier from
     Payments and Safeguard
                                                       the post office to the lockbox bank;
       Taxpayer Information                            establishing inventory controls earlier over
   (Reference No. 2002-30-055)                         tax payments received; enhancing video
                                                       surveillance systems; testing disaster
The IRS lockbox program consists of                    recovery plans; providing for biological
commercial banks that have contracted with             safeguards; requiring couriers, bank
the Financial Management Service, another              associates, and temporary employees to
government agency, to process tax                      undergo background clearance checks
payments. This program was designed to                 prior to handling IRS material; and further
accelerate the deposit of tax payments by              specifying guard service and courier
having taxpayers send their payments to                service requirements.
commercial banks rather than to the IRS.
                                                       IRS management agreed with most of the
With this acceleration came significant risks,         findings and recommendations in the
as evidenced in FY 2001 when control                   report, and plans numerous corrective
weaknesses contributed to the loss of                  actions.
taxpayer payments and taxpayer information
at a lockbox bank in Pittsburgh, Pennsylvania.
Approximately 71,000 taxpayer remittances                  Pricing Discrepancies on the
valued in excess of $1.2 billion were lost or                Long Term Maintenance
destroyed.                                                  Computing Center Contract
                                                               (TIR-NO-96-D-0021)
The Los Angeles lockbox bank processes tax
                                                           (Reference No. 2002-10-008)
payments for the Fresno Submission
Processing Center. The bank received
                                                       OI received an allegation that a contractor
payments for U.S. Individual Income Tax
                                                       had mischarged IRS for monthly software
Returns (Form 1040 series), employment tax
                                                       maintenance fees. From this allegation, OA
returns (Form 940 series), and other
                                                       reviewed the subcontractor’s records and
miscellaneous tax payments. The
                                                       determined that IRS was mischarged on
Los Angeles lockbox bank handled
                                                       nine Contract Line Items (CLIN) on the
approximately 10 percent of the more than 84
                                                       Long Term Maintenance Computing
million payments, totaling $311 billion,
                                                       Center contract. The subcontractor
processed for the entire lockbox network in
                                                       records indicated that these services were
FY 2000.
                                                       provided to the contractor at a significantly
OA reported that the Los Angeles lockbox               lower cost than the IRS was billed. The
bank was in compliance with established                contractor was charging IRS yearly costs
Lockbox Processing Guidelines concerning               on a monthly basis. This resulted in IRS
physical and data security for CY 2001.                unnecessarily paying the contractor
However, additional controls are needed in the         $433,000 over the life of the contract.
Guidelines to reduce the risks associated with
                                                       Additionally, IRS paid for a higher-priced
processing large volumes of taxpayer
                                                       software upgrade than that provided by the
remittances that could lead to financial losses
                                                       contractor. The IRS ordered a specific
and loss of taxpayer confidence.
                                                       CLIN upgrade, costing approximately
                                                       $199,500. However, the contractor


                                         TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   27
TIGTA's Results
replaced the item with another, lower-priced                     Individual Jailed for Sabotaging
product. The cost to the contractor for this
                                                                         IRS Computers
upgrade was $46,908. Therefore, the
estimated cost to the government should have
                                                             In October 2001, a person was sentenced to
been approximately $52,500, allowing the
                                                             15-months incarceration and three years
contractor a modest increase for general and
                                                             probation for intentionally causing damage to a
administrative expenses and profit. OA found
                                                             protected computer. The individual, an
no indication that the contractor notified IRS of
                                                             employee of an IRS contractor, was also
the product differences. As a result, IRS
                                                             ordered to pay restitution to IRS in the amount
unnecessarily spent approximately $147,000
                                                             of $108,804. By inserting active destructive
for this software upgrade.
                                                             computer codes on three separate IRS
                                                             computer servers, this person manipulated the
The mischarges on the software maintenance
                                                             code so that, once executed, it would destroy
and the upgrade have been discussed with an
                                                             all data on the three servers. After these
Assistant United States Attorney (AUSA), who
                                                             activities were discovered, the contracting firm
considered the prosecutable merits of the
                                                             and IRS shut down the servers in order to
case. After consulting with the contractor’s
                                                             remove the destructive code and reestablish
legal counsel, the AUSA declined civil and
                                                             the security and integrity of the system.
criminal prosecution.

OA recommended IRS take the necessary                             Health Insurance Employee
administrative actions to recover the $580,000
                                                                 Defrauds Government through
associated with the pricing discrepancies. IRS
                                                                      Bogus Refund Scam
management responded that avenues to
recoup the costs are limited. The contract is
                                                             A former health insurance company employee
completed and the contractor holds no other
                                                             was charged with one count of making false
contract with the IRS. Moreover, the contractor
                                                             claims against the U.S. In October 2001, this
has filed for Chapter 11 in the United States
                                                             individual, using the names, addresses, and
Bankruptcy Court. As an alternative, IRS
                                                             Social Security numbers of unsuspecting
issued a letter to the contractor requesting an
                                                             policyholders from various states across the
equitable adjustment in the amount of
                                                             country, created false tax returns in a scheme
$580,000. However, given the contractor’s
                                                             to defraud IRS of $278,000 in refunds, of which
bankruptcy status, recouping any costs from
                                                             the individual succeeded in obtaining almost
the contractor is unlikely.
                                                             $40,000.

                                                             Bank security contacted TIGTA to report a
                                                             suspicious transaction when numerous tax
                                                             refunds were electronically deposited into the
                                                             same account but the names on the refunds
                                                             did not match the bank account holder’s name.
                                                             TIGTA identified numerous bank accounts
                                                             associated with this scheme and advised bank
                                                             security to freeze the accounts to prevent the
                                                             individual from receiving the money. No
                                                             evidence was found linking this individual or the
                                                             friend to any IRS employee.




28     TIGTA's
 28 TIGTA's    FY 2002
            FY 2002    Semiannual
                    Semiannual    Report
                               Report     to Congress
                                      to Congress     ❍ March
                                                  ❍ March 31, 31,
                                                              20022002
                                                                                            TIGTA's Results

 Attorney Sentenced for Submitting                        cash payment. The attorney was arrested at
    Bogus Release of Levy Form                            the conclusion of this meeting and
                                                          subsequently pled guilty to federal bribery
In January 2002, an attorney pled guilty to               charges. Results of this investigation
corrupt interference with tax administration.             confirmed that the attorney acted alone
According to the indictment, IRS had issued a             without the knowledge of his business
Notice of Levy to an employer, instructing the            partners.
employer to pay a certain portion of an
individual’s salary each week to IRS in order to           Individual Pled Guilty in Scheme to
collect funds owed to IRS. The indictment                       Defraud Elderly Woman
alleged that the attorney submitted a bogus
release of levy form to the employer, causing             TIGTA received information from an IRS
the employer to erroneously release IRS’ levy             employee who reported suspicions that a
on the wages.                                             senior citizen was the victim of a fraudulent
                                                          scheme. An acquaintance reportedly made
In connection with this guilty plea, a federal
                                                          the senior citizen believe that IRS was holding
judge sentenced the attorney to five years
                                                          over one million dollars in refunds, which
probation. The attorney must serve the first
                                                          would be lost unless IRS tax payments were
six months in home confinement and was
                                                          made. From September 1997 to May 2000,
ordered to meet with the IRS to determine the
                                                          the senior citizen gave the acquaintance over
prior tax liability.
                                                          $40,000 via wire transfers to make payments
                                                          to IRS for this purpose. The indictment
      Business Owner Convicted                            alleged that the individual did not represent the
             of Bribery                                   IRS and instead converted all of these
                                                          payments to the acquaintance’s own use.
A business owner pled guilty to federal                   The senior citizen, who sold her home and
charges of making bribe overtures totaling                several rental properties to make these
$20,000 to an IRS employee. Following a                   fictitious tax payments, was living penniless in
routine meeting to discuss a federal tax liability        a homeless shelter when interviewed by
with business partners, this individual                   TIGTA.
contacted and offered an IRS employee
$10,000 to reduce the company’s liability by              As a result of interviews with witnesses,
half its original debt. The IRS employee                  analyses of financial documents, and
reported the bribe overture to TIGTA. In a                electronic monitoring, the acquaintance was
subsequent meeting with the business owner,               indicted, arrested, and subsequently pled
the cooperating IRS employee agreed to the                guilty in November 2001 to money laundering
offer and later accepted the $10,000 cash.                and was to be sentenced in April 2002. The
                                                          victim is currently receiving Social Security
With assistance from special agents from OI’s             benefits and is now living in a convalescence
TSS, electronic evidence was gathered                     care facility.
through the use of audio and video recording
devices. Following the first payoff, the attorney
                                                                  Individual Indicted on Six
offered the cooperating IRS employee a
                                                                       Counts of Fraud
second bribe of an additional $10,000 if the
employee would reduce the liability of another
                                                          In March 2002 an individual was indicted on
partner in the same fashion. A second,
                                                          one count of making false, fictitious or
covertly monitored meeting was arranged
                                                          fraudulent claims; one count of influencing or
where the attorney provided another $10,000
                                                          inuring an officer or juror; one count of


                                            TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   29
TIGTA's Results
attempting to interfere with the administration
                                                              Two Charged with Bank Fraud, Mail
of Internal Revenue laws; and three counts of
bankruptcy fraud.
                                                                    Fraud and Conspiracy

The indictment alleges that the individual                    In March 2002, the United States Attorney's
presented a check in the amount of $12,990                    office charged two individuals with mail fraud,
to the IRS on a closed bank account; that he                  bank fraud, and conspiracy. The information
filed Chapter 7 involuntary petitions in U.S.                 alleges the individuals paid bribes to an IRS
Bankruptcy Court identifying an IRS employee                  taxpayer service representative to access
and a judge as debtors (the petitions                         confidential IRS records relating to delinquent
contained false claims against them relating                  taxpayers. The individuals then offered to
to their role in a trial); and that the individual            represent the delinquent taxpayers before the
devised a scheme to defraud two individuals                   IRS and solicited monies from them on the
of certain alleged equity in their property by                false representation that the monies would be
filing false and fraudulent petitions. The                    paid over to the IRS as payments on an Offer
indictment also alleges that the individual filed             in Compromise. The individuals allegedly
the four involuntary bankruptcy petitions                     converted over $600,000 for their own use
without lawful payment of the filing fees.                    from funds given to them by the delinquent
                                                              taxpayers.

       Man Arrested for Sending
         Threatening Letters

In February 2002, special agents arrested a
man who allegedly sent a series of
threatening communications to an IRS
employee in January and February 2002. The
man was arrested pursuant to a criminal
complaint that alleged one count of forcible
interference with tax administration.




3030 TIGTA's
       TIGTA's
             FY FY 2002
                2002    Semiannual
                     Semiannual    Report
                                Report to to Congress
                                          Congress    ❍ March
                                                   ❍ March 31,31, 2002
                                                               2002
                                                                                             TIGTA Organization



TIGTA's FY2002 Semi-Annual Report
                           TIGTA'sto
                                   FYCongress ❍ March 31,
                                      2002 Semiannual     2002to❍Congress
                                                       Report     TIGTA Organization   31
                                                                          ❍ March 31, 2002   31
TIGTA's Organization

             Organization of the Treasury Inspector
             General for Tax Administration

                  TIGTA provides independent oversight of IRS activities, the IRS Oversight Board,
                  and the IRS Office of Chief Counsel. TIGTA is organizationally placed within
                  Treasury, but is independent of the Department and all other Treasury offices.
                  TIGTA’s focus is devoted to all aspects of work related to tax administration.

                  TIGTA’s primary organizational components are the Office of Audit and the Office
                  of Investigations. TIGTA’s Offices of Chief Counsel, Information Technology, and
                  Management Services support both components’ efforts.

                  TIGTA’s audit and investigative activities are designed to:

                             Promote economy, efficiency, and effectiveness in
                              administering the nation’s tax system.

                             Detect and deter fraud and abuse in IRS programs
                              and operations.

                              Protect IRS against external attempts to corrupt or
                               threaten its employees.


                  Authorities
                  TIGTA has all the authorities granted under the Inspector General Act of 1978.21
                  TIGTA also has access to tax information in the performance of its responsibilities
                  and has the obligation to report potential criminal violations directly to the
                  Department of Justice. The Inspector General and the Commissioner of the
                  Internal Revenue Service have established policies and procedures delineating
                  responsibilities to investigate potential criminal offenses under the internal revenue
                  laws.

                  In addition, RRA 98 amended the Inspector General Act of 1978 to give TIGTA
                  special agents statutory authority to carry firearms and execute the provisions of
                  the I.R.C. § 7608(b)(2). These provisions include law enforcement authority to
                  execute and serve search warrants, serve subpoenas, and make arrests.




21
     Pub. L. No. 95-452 Stat. 1101, as amended, at 5 U.S.C., App 3.


       TIGTA's
 32 TIGTA's FY FY 2002
               2002    Semiannual
                    Semiannual    Report
                               Report    to Congress
                                      to Congress    ❍ March
                                                  ❍ March 31,31, 2002
                                                              2002
                                       TIGTA's Organization




TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   33
TIGTA's Organization




Office of Audit
OA identifies opportunities to improve administration of the nation’s tax laws by conducting
comprehensive, independent performance and financial audits of IRS programs and
operations to:

     •   Assess efficiency, economy, effectiveness, and program accomplishments.

     •   Ensure compliance with applicable laws and regulations.

     •   Prevent, detect, and deter fraud, waste, and abuse.

The Audit program is comprised of reviews mandated by statute or regulation, as well as
reviews identified through the annual planning process. The Annual Audit Plan describes audit
responsibilities, audit focus and audit direction for the fiscal year. The planning process begins
with independent risk assessments, which are designed to prioritize areas based on the
greatest risks to the IRS. Major management issues, as well as specific areas of concern to
Congress, the IRS Commissioner and the IRS Oversight Board, are considered as part of this
planning process.

OA is organized around IRS’ core business activities (Small Business and Corporate
Programs; Wage and Investment Income; Information Systems; and Headquarters Operations
and Exempt Organization Programs). Emphasis is also placed on the statutory audit
coverage mandated by RRA 98, as well as on other statutory authorities and standards
involving computer systems and financial management.




3434 TIGTA's
        TIGTA's
             FY FY 2002
                2002    Semiannual
                     Semiannual    Report
                                Report    to Congress
                                       to Congress    ❍ March
                                                   ❍ March 31,31, 2002
                                                               2002
                                                                                   TIGTA's Organization




Office of Investigations
OI investigates activities related to fraud, waste, abuse and mismanagement concerning activities of
the IRS and related entities. OI is organized around 12 field divisions, which are geographically
dispersed around the country, with direct reporting responsibilities to TIGTA headquarters.
Additionally, OI includes five headquarters divisions that perform special support functions and
provide technical and investigative assistance to the field. These divisions include:

   •   Operations – provides OI with TIGTA’s guidance concerning all investigative matters.
       Some examples of Operations’ responsibilities include: responding to Congressional
       inquiries; liaison with other federal law enforcement agencies and preparation of recurring
       statistical reports for internal use and external use.

   •   Complaints Management – reviews and refers all complaints made to the TIGTA hotline
       and maintains OI's records.

   •   Strategic Enforcement – executes a proactive program to detect fraud in IRS operations,
       unauthorized accesses (UNAX) to IRS computer systems by internal users, and attempts to
       interfere with the security of IRS computers by external sources. SED’s staff includes the
       combined expertise of auditors, special agents, and computer programmers.

   •   Technical and Forensic Support – provides technical support to the field through the
       Technical Services Section (TSS) and the Forensic Science Laboratory (FSL). TSS
       provides technical and investigative assistance, equipment, training and other specialized
       services to enhance TIGTA’s investigative activities. The FSL processes documentary,
       physical and chemical evidence, fingerprint and handwriting examination, and photography
       and chemical analysis.

   •   Special Inquiries and Inspection – conducts TIGTA’s most complex, high profile
       investigations involving IRS senior management officials, the IRS oversight board, and IRS
       international employees. This Division includes three other specialized programs:
       procurement fraud, domestic terrorism and inspection.

                                         TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002   35
                                                                              Appendices



TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002 ❍ Appendices   37
                                            Appendix I - Statistical Reports for the
                                                                     Office of Audit


Audit Reports With Questioned Costs
Two audit reports with questioned costs were issued during this semiannual reporting period.

The term “questioned cost” is defined as a cost that is questioned because of: (1) an alleged violation of a
provision of a law, regulation, contract, or other requirement governing the expenditure of funds; (2) a finding
that, at the time of the audit, such cost is not supported by adequate documentation, i.e., “unsupported cost”
or (3) a finding that expenditure of funds for the intended purpose is unnecessary or unreasonable. The term
“disallowed cost” is defined as a questioned cost that management, in a management decision, has
sustained or agreed should not be charged to the Government.


     Reports With Questioned Costs                                                                                                                                                              Number                    Questioned
          (10/01/01 - 3/31/02)                                                                                                                                                                    of                         Costs2      Unsupported Costs
            Report Category                                                                                                                                                                     Reports1                (In Thousands)    (In Thousands)

      1.   For which no management decision
           had been made by the beginning of
           the reporting period                     ○       ○       ○       ○       ○           ○           ○           ○           ○           ○           ○               ○           ○           ○       ○       2         $136              $0

      2.   Which were issued during the reporting
           period.  ○   ○   ○   ○   ○   ○   ○   ○       ○       ○       ○       ○       ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○       2       $1,679              $0

      3.   Subtotals (Item 1 plus Item 2)                                                   ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○   4       $1,815              $0

      4.   For which a management decision was
           made during the reporting period.

           - Dollar value of disallowed costs                                                                               ○           ○           ○           ○               ○           ○       ○       ○       1         $135              $0

           - Dollar value of costs not disallowed                                                                                                       ○               ○           ○           ○           ○       2         $581              $0

      5.   For which no management decision had
           been made by the end of the reporting
           period. (Item 3 minus Item 4)                                                        ○           ○           ○           ○           ○           ○               ○           ○           ○       ○       1       $1,099              $0

      6.   For which no management decision was
           made within six months of report issuance                                                                                                                                ○           ○           ○       0           $0              $0
 1
     See Appendix IV for identification of audit reports involved.
 2
     “Questioned Costs” include “Unsupported Costs.”




38     TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
Report Recommendations that Funds be Put to Better Use

Three reports with recommendations that funds be put to better use were issued during this semiannual
reporting period.

The term “recommendation that funds be put to better use” is defined as a recommendation that funds could
be used more efficiently if management took actions to implement and complete the recommendation,
including: (1) reductions in outlays; (2) deobligations of funds from programs or operations; (3) costs not
incurred by implementing recommended improvements related to operations; (4) avoidance of unnecessary
expenditures noted in pre-award reviews of contract agreements; or (5) any other savings which are
specifically identified. The term “management decision” is defined as the evaluation by management of the
findings and recommendations included in an audit report and the issuance of a final decision concerning its
response to such findings and recommendations, including actions concluded to be necessary.



      Reports With Recommendations That Funds Be Put to Better Use                                                                                                                                                                                                                                                                              Number
                      (10/01/01 - 3/31/02)                                                                                                                                                                                                                                                                                                         of               Amount
                         Report Category                                                                                                                                                                                                                                                                                                        Reports1        (In Thousands)

       1. For which no management decision has been made by the
           beginning of the reporting period.                                                                          ○           ○           ○           ○           ○           ○           ○           ○       ○        ○           ○           ○           ○           ○       ○       ○       ○       ○       ○       ○       ○       ○       ○
                                                                                                                                                                                                                                                                                                                                                            1        $98

       2. Which were issued during the reporting period.                                                                                                                                                       ○       ○            ○           ○           ○           ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○
                                                                                                                                                                                                                                                                                                                                                            3    $14,005

       3. Subtotals (Item 1 plus Item 2)                                                               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○            ○           ○           ○           ○       ○       ○       ○       ○       ○       ○       ○       ○           ○   4    $14,103

       4. For which a management decision was made during the reporting
          period.
           • Dollar value of recommendations that were agreed to by management
                  - Based on proposed management action                                                                                                                                                                ○        ○               ○           ○           ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○   2     $1,198

                  - Based on proposed legislative action                                                                                                                                           ○           ○       ○        ○           ○           ○           ○           ○       ○       ○       ○   ○       ○       ○       ○       ○       ○       0         $0
           • Dollar value of recommendations that were not agreed to by
             management                ○       ○       ○       ○       ○       ○       ○       ○           ○           ○           ○           ○           ○       ○           ○           ○           ○           ○       ○            ○           ○           ○           ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       0         $0

       5. For which no management decision has been made by the end of
          the reporting period. (Item 3 minus Item 4)                                                                                                                                      ○           ○           ○       ○            ○           ○           ○           ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       2    $12,905

       6. For which no management decision was made within six months of
          issuance     ○   ○   ○   ○       ○       ○       ○       ○       ○       ○       ○       ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       ○        ○           ○           ○           ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       ○       0         $0


 1
     See Appendix IV for identification of audit reports involved.




                                                                                                                                                                                                                           Appendix I - Statisical Reports for the Office of Audit                                                                                          39
Reports with Additional Quantifiable
Impact on Tax Administration
In addition to questioned costs and funds put to better use, OA has identified additional measures that
demonstrate the value of audit recommendations on tax administration and business operations. These
issues are of interest to IRS and Treasury executives, Congress, and the taxpaying public, and are expressed
in quantifiable terms to provide further insights to the value and potential impact of OA’s products and
services. Including this information also advances adherence to the intent and spirit of GPRA.



                               Definitions of Additional Measures

❑    Taxpayer Rights and Entitlements at Risk: The protection of due process (rights) that is granted to
     taxpayers by law, regulation, or IRS policies and procedures. These rights most commonly arise in
     the performance of filing tax returns, paying delinquent taxes, and examining the accuracy of tax
     liabilities. The acceptance of claims for and issuance of refunds (entitlements) are also included in
     this category, relating to instances when taxpayers have a legitimate assertion of overpayments of
     tax.

❑    Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the need for,
     frequency of, or time spent on contacts, record keeping, preparation, or costs to comply with tax
     laws, regulations, and IRS policies and procedures.

❑    Increased Revenue or Revenue Protection: Assessment or collection of additional taxes
     (increased revenue), or proper denial of claims for refund, including recommendations that prevent
     erroneous refunds or efforts to defraud the tax system (revenue protection).

❑    Taxpayer Privacy and Security: Protection of taxpayer financial and account information (privacy).
     Processes and programs that provide protection of tax administration, account information, and
     organizational assets (security).

❑    Protection of Resources: Safeguarding human and capital assets, used by or in the custody of the
     organization, from inadvertent or malicious injury, theft, destruction, loss, misuse, overpayment, or
     degradation. This measure will often be expressed as a value of the entity or program affected by
     the issue(s) described in the audit report.

❑    Reliability of Management Information: Ensuring the accuracy, validity, relevance, and integrity of
     data, including the sources of data and the applications and processing thereof, used by the
     organization to plan, monitor, and report on its financial and operational activities. This measure will
     often be expressed as an absolute value (i.e., without regard to whether a number is positive or
     negative) of overstatements or understatements of amounts recorded on the organization’s
     documents or systems.




40   TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
Reports With Additional Quantifiable
Impact on Tax Administration

The number of taxpayer accounts, hours, and dollar values shown in this chart were derived from analyses of
historical data, and are thus considered potential barometers of the impact of audit recommendations. Actual
results will vary depending on the timing and extent of management’s implementation of the corresponding
corrective actions, and the number of accounts or subsequent business activities applicable from the dates of
implementation. Also, a report may have issues that impact more than one outcome measure category.



      Reports With Additional Quantifiable
          Impact on Tax Administration                          Number
              (10/01/01 - 3/31/02)                            of Reports      Number of        Number
                                                                  in          Taxpayer           of              Dollar Value
          Outcome Measure Category                            Category1       Accounts          Hours         (In Thousands)      Other7


     1. Taxpayer Rights and Entitlements at Risk                 3             9,736 2            --              $247,706
                                                                                                                                          8
     2. Reduction of Burden on Taxpayers                         6         6,564,429              --                    --
     3. Increased Revenue                                        2           20,990               --              $283,3603
     4. Revenue Protection                                       4             3,737              --              $208,9614
                                                                                                                                      9
     5. Taxpayer Privacy and Security                            1               --               --                   --
     6. Protection of Resources                                  3               --               --                $30,3415
     7. Reliability of Management Information                    4              542               --              $174,8616
 1
     See Appendix IV for identification of audit reports involved.
 2
     In one report (Reference No. 2002-10-068), consisted of two recommendations that impacted 137 taxpayers. However, accounts
     may be duplicated between two recommendations.
 3
     In one report (Reference No. 2002-30-050), IRS management did not concur with TIGTA’s calculation of the Increased
     Revenue of $138.2 million.
 4
     In one report (Reference No. 2002-40-021), IRS management did not concur with TIGTA’s calculation of the Revenue
     Protection of $557,058 for 831 taxpayers.
 5
     In one report (Reference No. 2002-40-020), IRS management did not concur with TIGTA’s calculation of the $28 million of
     resources protected.
 6
     In one report (Reference No. 2002-10-006), consisted of $13.9 million in offset fees shortfall that pertained to the Financial
     Management Service (FMS) and does not affect IRS. This review was coordinated with the Treasury’s Office of Inspector
     General that has responsibility for FMS.
 7
     Some reports contained “Other” quantifiable impacts besides the number of taxpayer accounts, number of hours, and dollar
     value. These outcome measures are described in footnotes 8 and 9 below.
 8
     Other measures of “Taxpayer Burden” consist of 68 Chief Counsel Advice documents released for public inspection based on
     TIGTA’s recommendations.
 9
     Other measures of “Taxpayer Privacy and Security” consist of 281,153 Form 990 Returns requiring improved protection.




                                                                       Appendix I - Statisical Reports for the Office of Audit            41
                                  Appendix II - Statisical Reports for the
                                                  Office of Investigations

Investigative Results
October 1, 2001 - March 31, 2002

 Investigations Opened and Closed

Total Investigations Opened                                                2,036
Total Investigations Closed                                               2,171




 Financial Accomplishments
 Embezzlement/Theft Funds Recovered                                    $506,480
 Court Order Fines, Penalties and Restitution                         $9,267,148
 Out-of-Court Settlements                                                    $0




42   TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
Investigative Results
October 1, 2001 - March 31, 2002



    Status of Closed Criminal Investigations
                                                                                   Employee         Non-Employee               TOTAL

    Criminal Referrals1
        Referred - Accepted for Prosecution ....................                       18                     86                 104
        Referred - Declined for Prosecution .....................                     313                    352                 665
        Referred - Pending Prosecution Decision ...........                            25                    106                 131

                                 TOTAL CRIMINAL REFERRALS                             356                    544                 900

    No Referrals ..............................................................       601                    572              1,173
1
    Criminal referrals include both federal and state dispositions.




    Criminal Dispositions2
                                                                                   Employee         Non-Employee               TOTAL

        Guilty .................................................................... 14 (14)             79 (97)           93 (111)
        Nolo-Contendere .................................................            0 (0)                 1 (0)                1 (0)
        Pre-trial Diversion ................................................         5 (9)               9 (29)             14 (38)
        Deferred Prosecution3 ..........................................             1 (4)                 2 (1)                3 (5)
        Not Guilty .............................................................     0 (0)                 3 (1)                3 (1)
        Dismissed4 ...........................................................       2 (2)               7 (13)               9 (15)

                             TOTAL CRIMINAL DISPOSITIONS                            22 (29)         101 (141)           123 (170)5

2
    Final criminal dispositions during the reporting period. This data may pertain to criminal investigations referred in prior reporting
    periods and does not necessarily relate to the criminal investigations referred in the Status of Closed Criminal Investigations table.
3
    Generally, in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with certain conditions
    imposed by the court. Upon defendant’s completion of the conditions, the court dismisses the case. If the defendant fails to fully
    comply, the court reinstates prosecution of the charge.
4
    Court dismissed charges.
5
    Numbers in parentheses reflect updated data that were previously reported in TIGTA’s April 1 - September 30, 2001 Semiannual
    Report to the Congress. The data were updated due to a programming error in a new management information system. Numbers
    not in parentheses reflect the data for this reporting period.


                                                                Appendix II - Statisical Reports for the Office of Investigations            43
Investigative Results
October 1, 2001 - March 31, 2002


    Administrative Status and Disposition on Closed TIGTA Investigations 1

                                                                                                                        TOTAL

    Removed, Terminated or Other .........................................................................                115
    Suspended/Reduction in Grade ........................................................................                   43
    Oral or Written Reprimand/Admonishment .......................................................                        108
    Closed - No Action Taken ..................................................................................           261
    Clearance Letter Issued ....................................................................................            81
    Employee Resigned Prior to Adjudication .........................................................                       47

                                                    TOTAL ADMINISTRATION DISPOSITIONS                                     655

1
    Final administrative dispositions during the reporting period. This data may pertain to investigations referred administratively in prior
    reporting periods and does not necessarily relate to the investigations closed in the Investigations Open and Closed table.




44      TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
Investigative Results
October 1, 2001 - March 31, 2002



    Complaints/Allegations Received by TIGTA
                                                                                                                  TOTAL

    Complaints Against IRS Employees ........................................................                      1,415
    Complaints Against Non-Employees .......................................................                       1,974

                                          NUMBER OF COMPLAINTS/ALLEGATIONS                                         3,389




    Status of Complaints/Allegations Received by TIGTA

                                                                                                                  TOTAL

    Investigations Initiated..............................................................................         1,582
    In Process Within TIGTA1 .........................................................................               175
    Referred to IRS for Action ........................................................................              207
    Referred to IRS for Information Only .......................................................                     528
    Referred to a Non-IRS Entity2 ..................................................................                   17
    Closed with No Referral ...........................................................................              820
    Closed with All Actions Completed ..........................................................                       60

                                                                          TOTAL COMPLAINTS                         3,389

1
    Complaints for which final determination had not been made at the end of the reporting period.
2
    A non-IRS entity includes other law enforcement entities or Federal agencies.

Note: IRS made 66 referrals to TIGTA that would more appropriately be handled by IRS and, therefore, were returned to IRS.
      These are not included in the total complaints shown above.




                                                              Appendix II - Statisical Reports for the Office of Investigations   45
Allegations of Misconduct Against IRS Employees

The following three tables consist of allegations of misconduct against individual IRS employees
recorded in the IRS Automated Labor and Employee Relations Tracking System (ALERTS).
Employee misconduct cases investigated by TIGTA have been extracted from the next two tables
and have been reported on the previous two pages. IRS management conducted the inquiries into
the cases reflected in these tables.

    Allegations of Employee Misconduct Investigated by IRS Management 1

                                                                                                  Case Type
                                                                                                Employee Tax
                                                                            Administrative2       Matter 3                Total

    Inventory on April 1, 2002 ..................................                 929                    732              1,661
    Add: Cases Received .........................................               2,477                    736              3,213
    Less: Cases Closed ...........................................             (2,513)                 (727)           (3,240)
    Duplicates ..........................................................         (25)                  (75)              (100)
    Not Misconduct ..................................................             (11)                    (0)              (11)
    Total Closures ....................................................        (2,549)                 (802)            (3351)
    Inventory on Sept. 30, 2001 ...............................                   857                    666              1,523


1
    Because of potential duplication of taxpayer complaints tracked in IRS’ various management information systems, IRS is unable to
    report on the total number of taxpayer complaints received.
2
    Administrative - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
3
    Employee Tax Matter - Any matter that becomes of official interest involving an employee’s tax compliance.




46      TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
Allegations of Misconduct Against IRS Employees


 Disposition of Employee Misconduct Cases Investigated by IRS
 Management

                                                                                        Employee Tax
 Disposition                                                       Administrative         Matter                     Total

 Removal .......................................................         57                      5                      62
 Separation of Probationary Employees .......                           280                     13                    293
 Separation of Temporary Employees ...........                           11                      7                      18
 Resignation/Retirement ...............................                 144                     37                    181
 Suspensions.................................................           128                     57                    185
 Reprimands ..................................................          231                   114                     345
 Counseling ...................................................         820                   286                   1,106
 Alternative Discipline ....................................             36                     17                      53
 Clearance .....................................................         98                     27                    125
 Closed Without Action ..................................               629                   157                     786
 Forwarded to TIGTA .....................................                16                      0                      16
 Not Otherwise Coded ...................................                 63                      7                      70

                                                      TOTAL           2,513                    727                  3,240




                                                           Appendix II - Statisical Reports for the Office of Investigations   47
Allegations of Misconduct Against IRS Employees




     IRS Summary of Substantiated Section 1203 Allegations 1

     1203 Violation2                                                                      Removals               Penalty Mitigated

     Seizure Without Approval .................................................                0                         0
     False Statement Under Oath. ..........................................                    0                         0
     Constitutional & Civil Rights Issues .................................                    0                         0
     Falsifying or Destroying Records .....................................                    0                         0
     Assault or Battery .............................................................          0                         0
     Retaliate or Harass ..........................................................            1                         0
     Misuse of 6103 .................................................................          0                         0
     Failure to File Federal Tax Return ....................................                   3                       36
     Understatement of Federal Tax Liability ..........................                        0                         1
     Threat to Audit for Personal Gain ....................................                    1                         0

                                                                            TOTAL              5                       37

1
    The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third party appeal.
2
    The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third party appeal.

Source: IRS Automated Labor and Employee Relations Tracking System (ALERTS) and 1203 Review Board records.




48       TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
                             Appendix III - Statistical Reports - Others

Audit Reports With Significant
Unimplemented Corrective Actions

The Inspector General Act of 1978 requires identification of significant recommendations described
in previous semiannual reports on which corrective actions have not been completed. The
following list is based on information from the IRS Office of Management Control’s automated
tracking system maintained by Treasury management officials.



                                              Report Title and Recommendation Summary
                                Projected
 Reference                     Completion     (F = Finding Number, R = Recommendation Number,
 Number          Issued           Date        P = Plan Number)

 093602         April 1999                    The Internal Revenue Service Needs To Improve Treatment
                                              of Taxpayers During Office Audits
                                10/01/02      F-1, R-3, P-2. Require a separation of duties among auditors
                                              who identify Midwest Automated Compliance System (MACS)
                                              returns with potential tax changes, auditors who select MACS
                                              returns to be audited, and auditors who conduct the
                                              examinations.
                                10/01/05      F-1, R-4, P-2. Ensure that all MACS data discs forwarded
                                              from the MACS Development Center to district offices are
                                              properly accounted for and secured.

                                08/01/02      F-2, R-4, P-1. Clarify the Internal Revenue Manual to provide
                                              specific guidance for conducting correspondence audits in
                                              district office settings.

 094206         May 1999                      The Examination Returns Control and Integrated Data
                                              Retrieval Systems Can Be Improved to Protect Taxpayer
                                              Rights During the Audit Process
                                04/01/02      F-3, R-1, P-2. Ensure the issues are addressed to enable the
                                              Examination Returns Control System audit trail to be used to
                                              its fullest extent.




                                                               Appendix III - Statistical Reports, Others     49
                                                    Report Title and Recommendation Summary
                                 Projected
 Reference                      Completion          (F = Finding Number, R = Recommendation Number,
 Number         Issued            Date               P = Plan Number)

 093009       June 1999                             Review of the Electronic Fraud Detection System
                                 04/01/02           F-1, R-2, P-2. Initial and periodic password changes should
                                                    be systemically enforced for the Electronic Fraud Detection
                                                    System (EFDS) application program.
                                 04/01/02           F-1, R-3, P-2. Workstation terminals should be disabled after
                                                    a selected number of failed login attempts to the EFDS
                                                    application program.
                                 04/01/02           F-1, R-4, P-2. Password change information should be part of
                                                    the EFDS application audit trail.
                                 01/01/03           F-2, R-1, P-2. Program the EFDS application trail to record all
                                                    accesses to taxpayer data.
                                 01/01/03           F-2, R-2, P-2. Design an audit trail application to record
                                                    accesses to taxpayer data through secondary sources such as
                                                    the database administrator, system query tools, or contract
                                                    vendors.
                                 01/01/03           F-3, R-1, P-2. Ensure that the programming changes are
                                                    made. The EFDS application audit reports should be changed
                                                    to include a date range field and service center site field where
                                                    applicable.
                                 07/01/03           F-3, R-4, P-2. The assessment should take into consideration
                                                    the audit trail issues referred to in the Memorandum of
                                                    Understanding to improve the usefulness of the EFDS
                                                    application audit trail.
                                 04/01/02           F-3, R-5, P-2. Because of the sensitivity of the data
                                                    maintained on the EFDS, and the number of people who have
                                                    access to the system (with more planned in the future), the
                                                    audit trail problems referred to in the report should be included
                                                    by IRS as a Federal Managers’ Financial Integrity Act material
                                                    weakness.
                                 06/01/02           F-5, R-2, P-1. In the upcoming certification process,
                                                    Information Systems should ensure that the issues discussed
                                                    in this report are corrected, and that all other controls
                                                    necessary for a proper certification are in place and
                                                    functioning.




50   TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
                                               Report Title and Recommendation Summary
                               Projected
Reference                     Completion       (F = Finding Number, R = Recommendation Number,
Number           Issued          Date          P = Plan Number)

199920063      August 1999                     The General Controls Environment Over the Internal
                                               Serviceês Unisys 2200 Systems Can Be Improved Revenue
                               07/01/02        F-2, R-1, P-1. Standardize control settings for files common to
                                               the Unisys 2200 production mainframes.
                               07/01/02        F-3, R-1, P-1. Ensure all improperly owned files are identified
                                               and assigned an owner present on the Unisys 2200 system at
                                               each service center, with the exception of files required to be
                                               unowned, prior to movement of that service center’s
                                               mainframe to the consolidated Unisys 4800 environment.
                               P-2: 07/01/02   F-3, R-2, P-2, P-3. Institute a policy requiring that all
                               P-3: 01/01/03   files owned by users being removed from the Unisys 2200 and
                                               Unisys 4800 systems either be deleted or assigned to a user
                                               present on the system.
                               07/01/02        F-4, R-1, P-1. Examine the possibility of tracking individual user
                                               actions while using the MASTER user-id on the Unisys 4800
                                               system and, if possible, implement this feature as soon as
                                               feasible.
                               05/01/02        F-6, R-1, P-1. Ensure that all required C-2 documentation is
                                               prepared for the Unisys 4800.
                               07/01/02        F-6, R-2, P-1. Develop and maintain a security policy for the
                                               Unisys 4800.

199910072     September 1999                   The Internal Revenue Service Needs to Improve
                                               Compliance With Legal and Internal Guidelines When
                                               Taking Taxpayersê Property for Unpaid Taxes
                               P-1: 06/01/02   F-2, R-3, P-1, P-2, P-3. Verify that all applicable items on the
                               P-2: 06/01/02   the pre-seizure checklist are completed prior to approving the
                               P-3: 06/01/02   seizure and that all applicable items on the seizure and post-
                                               seizure checklists under development are completed.


2000-30-015   December 1999                    Consolidated Report on Opportunities for the Internal
                                               Revenue Service to Improve Service to Business Taxpayers
                               10/01/02        F-2, R-1, P-1. Expand the current Federal Tax Deposits alert
                                               reengineering effort to re-evaluate the cost effectiveness of the
                                               Program.

2000-10-033   February 2000                    The Internal Revenue Service Can Further Reduce the
                                               Burden on Taxpayers Who Disagree With Proposed
                                               Assessments
                               10/01/02        F-1, R-1, P-1. Send letters of proposed changes (30-Day
                                               Report) via certified mail, with return receipt requested, when
                                               taxpayers do not respond to the initial contact letter.




                                                                 Appendix III - Statistical Reports, Others         51
                                                    Report Title and Recommendation Summary
                                 Projected
 Reference                      Completion          (F = Finding Number, R = Recommendation Number,
 Number            Issued          Date             P = Plan Number)

 2000-10-058    March 2000                          The Internal Revenue Service Needs to Improve Its
                                                    Compliance With Procedures When Processing Requests
                                                    for Information Under the Freedom of Information Act
                                 11/01/02           F-3, R-2, P-1. Obtain controlled access to the IRS’ tax account
                                                    information in the National Office of Governmental Liaison and
                                                    Disclosure to research the availability of the requested records.
 2000-30-057                                        Opportunities Exist for Further Reducing Erroneous Fuel
                                                    Tax Credits
                                 06/01/02           F-1, R-1, P-1. IRS needs to emphasize the importance of
                                                    checking prior year returns for fuel tax credits, when closing
                                                    current year fuel tax cases with an adjustment, and to
                                                    establish management controls to ensure that the requirement
                                                    is followed.
 2000-30-059                                        The Internal Revenue Service Can Improve the Estate Tax
                                                    Collection Process
                                 07/01/02           F-1, R-1, P-1. Assign the responsibility for determining
                                                    whether a bond or tax lien should be secured to the service
                                                    center employees who process the installment agreements,
                                                    instead of to the district offices.
                                 04/01/02           F-1, R-2, P-2. Review and approve all requests for payment
                                                    extensions. The review should ensure the estate has
                                                    demonstrated reasonable cause before granting the payment
                                                    extension.
                                 11/01/02           F-2, R-1, P-1. Instruct managers and employees to conduct a
                                                    100 percent review of all current estate cases to ensure active
                                                    tax liens are input to the Automated Lien System (ALS), tax
                                                    liens and lien fees are properly reflected on the taxpayer
                                                    accounts, and all tax liens are released on accounts that have
                                                    no tax obligation.
                                 07/01/03           F-2, R-2, P-1. Develop procedures to periodically reconcile tax
                                                    liens on the ALS with information shown on the taxpayer
                                                    accounts.
                                 11/01/02           F-2, R-3, P-1. Clarify procedures to employees that all estate
                                                    tax liens should be recorded on the ALS.
                                 07/01/02           F-3, R-3, P-1. Ensure all estate tax accounts with collection
                                                    statute abatements are manually reviewed to verify or correct
                                                    CSED calculations.
                                 01/01/03           F-3, R-4, P-1. Coordinate to develop a procedure to identify
                                                    accounts with multiple assessments and collection statute
                                                    dates to ensure partial abatements occur when the earliest
                                                    CSED is reached.




52   TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
                                       Report Title and Recommendation Summary
                           Projected
Reference                 Completion   (F = Finding Number, R = Recommendation Number,
Number         Issued        Date      P = Plan Number)

2000-40-055                            The Internal Revenue Service Needs to Improve Its
                                       Coordinated Oversight of the Substitute for Return
                                       Process
                           10/01/02    F-2, R-1, P-1. Coordinate the development of a Subsitute For
                                       Return (SFR) process to monitor the future filing compliance of
                                       taxpayers with SFR tax assessments regardless of which
                                       function processed the account.


2000-40-063   May 2000                 Increased Attention Is Needed to Ensure Timely, Accurate
                                       Determinations on Innocent Spouse Claims for Relief
                           04/01/02    F-2, R-1, P-2. Design and implement a system of internal
                                       controls that addresses the quantity, cost, and timeliness of the
                                       Innocent Spouse Program to complement the existing internal
                                       controls over the quality of the Program.


2000-30-088   June 2000                Millions of Dollars in Internal Revenue Service Excess
                                       Collections Accounts Could be Credited to Taxpayers
                           07/01/02    F-2, R-1, P-4. Coordinate education efforts for employees
                                       handling these accounts and develop strategies for increasing
                                       taxpayer and practitioner awareness of the law on the statute of
                                       limitations for refunding and crediting payments related to
                                       overdue tax returns.
2000-20-092                            Certifying the Security of Internal Revenue Service
                                       Computer Systems is Still a Material Weakness
                           10/01/02    F-1, R-4, P-1. Ensure that IRS’ certification process includes
                                       follow-ups with the accrediting executives’ prior to the
                                       expiration of their systems security certification to ensure that
                                       they are aware that a new certification and accreditation is
                                       required.
                           10/01/02    F-1, R-5, P-1. Ensure that all functional executives for
                                       individual systems are fully aware of the overall certification
                                       and accreditation process.
                           10/01/02    F-1, R-6, P-1. Centralize the process for identifying and
                                       tracking all information systems requiring certification and
                                       accreditation.
                           10/01/02    F-2, R-1, P-1. Ensure that IRS’ certification process includes
                                       follow-ups with the accrediting executives to ensure that
                                       necessary information relevant to the official accreditation is
                                       provided and to educate them on the importance of providing
                                       this information.
2000-20-094                            A Comprehensive Program for Preventing and Detecting
                                       Computer Viruses Is Needed
                           04/01/02    F-2, R-1, P-1. Develop and implement IRS-wide procedures
                                       detailing the frequency and steps to be followed for reliably
                                       updating anti-virus software on both networked and portable
                                       notebook computers.



                                                         Appendix III - Statistical Reports, Others        53
                                                    Report Title and Recommendation Summary
                                 Projected
 Reference                      Completion          (F = Finding Number, R = Recommendation Number,
 Number            Issued          Date             P = Plan Number)

 2000-20-094                     05/01/02           F-2, R-2, P-1. Establish controls for ensuring all updates have
                                                    been successfully accomplished.
                                 05/01/02           F-3, R-1, P-1. Develop a system for gathering information to
                                                    help analyze and monitor the effectiveness of the program’s
                                                    virus detection and prevention activities.

                                 05/01/02           F-4, R-1, P-1. Strengthen procedures for ensuring that
                                                    employees comply with the Internal Revenue Manual
                                                    requirements for preparing Virus Incident Reports.
 2000-20-099     June 2000                          Significant Risks Need to Be Addressed to Ensure
                                                    Adequate Oversight of the Systems Modernization Effort
                                 09/30/01           F-1, R-3, P-1. Finalize and fully implement Quality Assurance
                                                    policies and procedures throughout the organization.
                                 09/01/01           F-2, R-1, P-1. Develop a staffing plan for the Program
                                                    Management Office (PMO) to ensure that the PMO is
                                                    adequately staffed and the personnel have proper training.
                                 12/31/01           F-2, R-4, P-1. Develop a back-up plan for key personnel to
                                                    ensure that the PMO is adequately staffed and the personnel
                                                    have proper training.
                                 12/31/01           F-2, R-5, P-1. Develop policies and procedures to regularly
                                                    update the staffing plan, skills analysis, training plan, and
                                                    back-up plan for key personnel.
                                 10/01/01           F-3, R-3, P-1. Assess the PRIME contractor’s processes to
                                                    ensure that performance monitoring data being provided to
                                                    IRS are complete and accurate.

 2000-30-111     August 2000                        Improvements Are Needed in Resolving In-Business Trust
                                                    Fund Delinquencies to Prevent Tax Liabilities From
                                                    Pyramiding
                                 01/01/03           F-2, R-1, P-1. Use all collection tools, including enforcement
                                                    tools and require the filing of monthly, rather than quarterly,
                                                    returns.
 2000-30-120                                        Expanding the Electronic Tax Law Assistance Program
                                 05/01/02           F-1, R-1, P-1. To meet its Electronic Tax Administration goals,
                                                    IRS needs to redesign the Electronic Tax Law Assistance
                                                    (ETLA) program to leverage technology that will provide
                                                    enhanced access to tax information, maximize efficiency, and
                                                    improve electronic customer service.
                                 09/01/02           F-2, R-1, P-1. To effectively administer the rapid growth of
                                                    taxpayer demand, economically use resources, and design
                                                    future enhancements of the program, IRS needs to fully
                                                    commit to the ETLA program by converting it from a long-term
                                                    research project to a fully supported independent function.




54   TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
                                           Report Title and Recommendation Summary
                            Projected
Reference                  Completion      (F = Finding Number, R = Recommendation Number,
Number          Issued        Date         P = Plan Number)

2000-30-120                    12/31/02    F-3, R-1, P-1. Until there are technological changes and an
                                           organizational commitment, IRS needs to delay the marketing
                                           of the ETLA program. In the interim, IRS should expand the
                                           ETLA program to additional call sites to process the ever-
                                           increasing taxpayer demand for this electronic service while
                                           reducing the need to use more expensive Compliance
                                           function personnel.


2000-30-130   September 2000               Opportunities Exist to Enhance the International Field
                                           Assistance Specialization Program
                               04/30/02    F-2, R-1, P-1. Improve the management information system by
                                           linking the International Field Assistance Specialization
                                           Program (IFASP) indicator to specific issues listed in the
                                           International Case Management System.
                               06/01/03    F-2, R-2, P-2. Ensure international examiners gain greater
                                           access to IRS’ Intranet so that the IFASP can accumulate and
                                           disseminate more information electronically, including an
                                           electronic referral form for IFASP assistance.
2000-10-145                                Improvements Are Needed to Ensure Control and
                                           Accountability Over Automated Data Processing Assets
                               06/01/02    F-1, R-1, P-1. Conduct quality reviews prior to forwarding the
                                           Automated Data Processing Property Certifications to the
                                           Chief Information Officer for final approval and certification to
                                           the Commissioner.
                               07/01/02    F-2, R-1, P-1. Re-evaluate resource commitments needed to
                                           successfully implement the Single Point Inventory Function
                                           and elevate to the Deputy Commissioner Operations for
                                           resolution any staffing shortages that imperil successful
                                           implementation.
2000-30-146                                Opportunities Exist to Identify Unreported Taxes from
                                           Employerês Quarterly Federal Tax Returns
                           P-3: 07/01/02   F-1, R-1, P-3, P-4. Increase Employer’s Quarterly Tax Return
                           P-4: 07/01/02   (Form 941) compliance efforts.
2000-30-154                                Significant Improvements Are Needed in Processing Gift
                                           Tax Payments and Associated Extensions to File
                               01/01/03    F-1, R-1, P-1. Require that all balance due notices generated
                                           for gift tax accounts be reviewed. Tax examiners should be
                                           instructed to review the taxpayers’ corresponding individual
                                           income tax and gift tax accounts to determine if the taxpayers’
                                           gift tax payments and extensions were correctly processed.
2000-20-158                                Additional Actions Are Needed to Strengthen the
                                           Development and Enforcement of the Enterprise
                                           Architecture
                               10/01/01    F-5, R-2, P-1. Establish a waiver process to approve minor
                                           deviations from the established architecture standards.




                                                             Appendix III - Statistical Reports, Others        55
                                                    Report Title and Recommendation Summary
                                  Projected
 Reference                       Completion         (F = Finding Number, R = Recommendation Number,
 Number            Issued           Date            P = Plan Number)

 2000-30-162    September 2000                      The Internal Revenue Service Needs to Better Address
                                                    Bankruptcy Automatic Stay Violations
                                  10/01/02          F-1, R-2, P-1. Provide additional computer programming
                                                    enhancements to improve the value of litigation transcripts.
                                  04/01/02          F-1, R-5, P-1. Provide consistent guidelines to the SPf units
                                                    on how to notify the Examination function that the taxpayer is
                                                    in bankruptcy.
                                 P-1: 10/01/02      F-2, R-1, P-1, P-2. Request that the Automated Insolvency
                                 P-2: 08/01/02      System be reprogrammed so that the actual receipt date of the
                                                    case can be input into the system to provide management with
                                                    more accurate data on timeliness of input of new case
                                                    information.
                                 P-1: 10/01/02      F-2, R-2, P-1, P-2. Ensure that all employees review the
                                 P-2: 08/01/02      Potentially Invalid Taxpayer report and resolve all cases
                                                    promptly to ensure timely posting of the bankruptcy to the
                                                    taxpayer’s account.

 2001-30-014    November 2000                       The Internal Revenue Service Does Not Effectively Use the
                                                    Trust Fund Recovery Penalty as a Collection Enforcement
                                                    Tool
                                  02/01/03          F-1, R-5, P-1. Make programming changes to the Automated
                                                    Trust Fund Recovery System to ensure that delinquent tax
                                                    returns are addressed when making trust fund recovery penalty
                                                    calculations.
 2001-40-008                                        Electronic Returns Were Processed Effectively
                                  07/01/02          F-2, R-1, P-4. Develop national standards, goals, and
                                                    procedural guidance to ensure consistent and effective
                                                    customer service is provided by all processing site Help
                                                    Desks.
 2001-20-016                                        Employeesê Extensive Personal Use of the Internet Should
                                                    Be Controlled
                                  05/01/02          F-1, R-2, P-1. Mandate that all Internet-related activity logs
                                                    from IRS firewall and proxy servers are retained and
                                                    periodically reviewed to identify inappropriate accesses.
                                  05/01/02          F-1, R-3, P-1. Augment the vendor’s blocking criteria list with
                                                    other known inappropriate sites identified during monitoring
                                                    efforts or from referrals.
                                  P-2: 05/01/02     F-1, R-4, P-2, P-4. Consider the impact on IRS resources
                                  P-4: 05/01/02     prior to deciding to implement a “limited personal use” Internet
                                                    policy.




56   TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
                                               Report Title and Recommendation Summary
                                Projected
 Reference                     Completion      (F = Finding Number, R = Recommendation Number,
 Number           Issued          Date         P = Plan Number)

2001-10-026    December 2000                   Additional Management Actions Are Needed to Ensure the
                                               Timely and Successful Modernization of the Tax Exempt
                                               and Government Entities Division
                               P-1: 09/30/01   F-3, R-1, P-1, P-2. Ensure that the risks associated with Tax
                               P-2: 10/01/02   Exempt and Government Entities (TE/GE) Division core
                                               processes that could result in disruptions to customer service
                                               are identified and monitored. Also, all other TE/GE Division
                                               workaround processes to ensure that permanent solutions are
                                               in place and working as intended.
                                12/31/01       F-5, R-2, P-1. Enhance the Service Level Agreement with the
                                               Information Systems organization to ensure the TE/GE
                                               Division receives sufficient support from the IS organization
                                               and establish a practice to resolve issues related to non-
                                               performance.
 2001-40-024                                   The Program for Ensuring Compliance With Anti-Money
                                               Laundering Reporting Requirements Should Be Improved
                                04/01/02       F-2, R-2, P-1. Improve tracking of productivity and
                                               achievement of performance indicators by ensuring reliable
                                               Title 31 information is timely provided by field units.
                                08/01/02       F-1, R-7, P-1. Ensure sufficient training is provided nationwide
                                               on a timely basis.
 2001-20-022                                   Controls Over the Development of the Practitioner Secure
                                               Messaging System Prototype Should Be Improved
                               06/01/02        F-3, R-1, P-1. Require the contractor to break down the total
                                               hours worked by task on each status report, break down by
                                               individual project the labor hours and other costs billed on each
                                               payment voucher, report as “current” (not “cumulative”) all
                                               costs that are included on the payment voucher with an
                                               appropriate comment when the costs apply to another
                                               accounting period, and report the amount billed for each
                                               person’s current hours.
 2001-40-021   January 2001                    Additional Efforts Are Needed for Improving Revenue
                                               Protection
                               P-1: 10/01/02   F-1, R-1, P-1, P-2. Ensure that the Revenue Protection
                               P-2: 10/01/02   Strategy (RPS) is a long-term strategic plan that is
                                               coordinated among functional areas. The RPS should
                                               recognize and take steps to defeat known fraud and abuse, as
                                               well as outline proactive measures for attempting to eliminate
                                               potential areas of fraud and abuse.
                               P-1: 10/01/02   F-1, R-2, P-1, P-2. Establish measurable goals and objectives
                               P-2: 10/01/02   to evaluate the effectiveness of the RPS. The goals and
                                               objectives should ensure that revenue is protected and
                                               taxpayer burden is reduced.
                               P-1: 10/01/02   F-2, R-1, P-1, P-2. Develop a process to measure the
                               P-2: 10/01/02   effectiveness of individual initiatives on reducing
                                               noncompliance, until the RPS is developed and implemented.
                                               Once developed, the RPS should also contain provisions for
                                               measuring the effect of its components on reducing
                                               noncompliance.
                                                                Appendix III - Statistical Reports, Others    57
                                                        Report Title and Recommendation Summary
                                     Projected
 Reference                          Completion          (F = Finding Number, R = Recommendation Number,
 Number                Issued          Date             P = Plan Number)

 2001-10-027         January 2001                       Improved Case Monitoring and Taxpayer Awareness
                                                        Activities Can Enhance the Effectiveness of the Tax
                                                        Practitioner Disciplinary Proceedings Program
                                      03/01/03          F-1, R-1, P-1. Upgrade the automated case management
                                                        system to provide more timely and accurate data on case
                                                        activities and the use of program resources.
                                      07/01/02          F-1, R-2, P-1. Conduct an annual workload and staffing
                                                        analysis to identify the staffing necessary to take prompt
                                                        action on allegations of tax practitioner violations.
 2001-20-043          February 2001                     Electronic Signature Initiatives Could Be Better Defined
                                                        and Evaluated
 n security po                        05/01/02          F-1, R-1, P-1. Finalize IRS requirements for the use of
                                                        Personal Identification Numbers as alternative signatures for
                                                        electronically filed returns based on evolving guidance and the
                                                        draft IRS authentication security policy and implementation
                                       guide.
                                      07/01/02          F-1, R-2, P-1. Ensure that all operational alternative signature
                                                        initiatives comply with the requirements.

 2001-30-052         March 2001                         Program Improvements Are Needed to Encourage Taxpayer
                                                        Compliance in Reporting Foreign Sourced Income
                                      01/01/03          F-1, R-1, P-1. Ensure the prior recommendations are
                                                        implemented. Establishing a formal program with goals,
                                                        objectives, processes and measures could help ensure that
                                                        sufficient management attention is devoted to improving the
                                                        use of the Routine Exchange of Information Program for
                                                        compliance.
                                      01/01/03          F-2, R-1, P-1. Identify the highest risk foreign sourced income
                                                        documents and use them to coordinate with tax treaty partners
                                                        to positively identify the U.S. taxpayers involved.
                                      P-1: 01/01/07     F-3, R-1, P-1, P-2. Improve systems that process data IRS
                                      P-2: 01/01/07     receives on foreign sourced income.
 2001-30-063                                            More Consideration Is Needed During Examinations to
                                                        Identify Potential Fraud Issues and Refer Cases to Criminal
                                                        Investigation
                                      04/01/02          F-1, R-2, P-1. Continue demonstrating to front-line employees
                                                        their commitment to the Fraud Referral Program and regularly
                                                        emphasize the priority it has.
     2001-30-099      June 2001                         Management Advisory Report: The Internal Revenue
                                                        Service Could Reduce the Number of Business Tax Returns
                                                        Destroyed Because of Missing Information
                                   P-2: 07/10/03        F-1, R-1, P-2, P-3. Make necessary modifications to tax forms
                                   P-3: 07/10/03        and instructions to ensure taxpayers understand that their
                                                        names, addresses, and taxpayer identification numbers are
                                                        required on both their tax forms and payment vouchers.




58       TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
                                         Report Title and Recommendation Summary
                             Projected
Reference                   Completion   (F = Finding Number, R = Recommendation Number,
Number         Issued          Date      P = Plan Number)

2001-30-099                  05/01/02    F-1, R-2, P-1. Ensure that lockbox banks are provided clear
                                         instructions to review taxpayer identifying information on tax
                                         returns before separating the returns and payment vouchers.


2001-10-103   August 2001                Improvements Are Needed to Comply With Legal and
                                         Procedural Requirements for Collection Statute Extensions
                                         and Installment Agreements
                             05/01/02    F-1, R-1, P-1. Clarify procedures to require that approving
                                         officials approve both the installment agreement or levy release
                                         and the Tax Collection Waiver (Form 900) simultaneously and
                                         ensure the revised collection statute expiration date is
                                         extended beyond the full payment date of the installment
                                         agreement.
                             05/01/02    F-1, R-2, P-1. Correct the collection statute expiration dates
                                         on the 16 taxpayer accounts in which an installment agreement
                                         was not secured with the Form 900 as required by
                                         RRA 98 §3461(a).
                             07/01/02    F-2, R-1, P-1. Develop a comprehensive plan for implementing
                                         the provisions of RRA 98 §3461(c).
                             05/01/02    F-3, R-1, P-1. Update the Internal Revenue Manual based on
                                         the IRS reorganization to reflect the new locations for storing
                                         signed collection statute extension forms in each of the new
                                         IRS business units.
                             05/01/02    F-1, R-3, P-1. Correct the 27 taxpayer accounts in which the
                                         extended date on the Form 900 does not match the date on
                                         the taxpayer’s account as shown on the IRS’ computer system.
                             09/01/02    F-4, R-1, P-1. Provide training to applicable IRS employees
                                         and managers on the requirements and the method to compute
                                         installment agreements and collection statute extensions,
                                         consistent with the law and IRS policy and procedures.
2001-20-146                              The Internal Revenue Service Is Making Progress, But Is
                                         Not Yet in Full Compliance With the Requirements of the
                                         Clinger-Cohen Ac t
                             09/01/02    F-1, R-1, P-1. Prepare an overall strategy, plan and schedule
                                         to bring the IRS in full compliance with the Clinger-Cohen Act.


2001-30-117                              Letter Report: Additional Controls Are Necessary to
                                         Ensure that All Businesses Are Classified by Their
                                         Principal Business Activity
                             05/01/02    F-1, R-1, P-1. Identify business taxpayers by their principal
                                         business activity (PBA) from information provided on the
                                         Application for Employer Identification Number (Form SS-4) for
                                         entry to the IRS’ masterfile.
                             05/01/02    F-2, R-1, P-1. Implement processing controls to identify
                                         Individual Masterfile tax returns with invalid or missing PBA
                                         codes, and Business Master File Tax returns with invalid PBA
                                         codes for research and correction during processing.


                                                          Appendix III - Statistical Reports, Others       59
                                                    Report Title and Recommendation Summary
                                  Projected
 Reference                       Completion         (F = Finding Number, R = Recommendation Number,
 Number            Issued           Date            P = Plan Number)


 2001-30-132                                        Significant Tax Revenue May Be Lost Due to Inaccurate
                                                    Reporting of Taxpayer Identification Numbers for
                                                    Independent Contractors
                                  07/01/02          F-2, R-1, P-1. Explore opportunities to supplement the IRS’
                                                    future Internet-based Taxpayer Identification Number (TIN)
                                                    confirmation program with an automated telephone-based TIN
                                                    confirmation process for those payers who do not have Internet
                                                    access.
                                  07/01/02          F-2, R-4, P-1. Initiate a proposal recommending changes to
                                                    the criteria for asserting the Incorrect Information penalty.
 2001-10-147    September 2001                      Compliance with Certain Taxpayer Rights Provisions
                                                    Contained in the Internal Revenue Service Restructuring
                                                    and Reform Act of 1998 Could Be Improved
                                  07/01/03          F-1, R-2, P-1. Complete the request for programming changes
                                                    for the Integrated Data Retrieval System, Automated Collection
                                                    System, and Integrated Collection System to print detailed
                                                    interest and penalty notices.
 2001-30-148                                        Tax Law Changes Are Needed to Improve Fairness in
                                                    Paying Interest on Tax Refunds
                                  06/01/02          F-1, R-2, P-1. Propose legislation that will require the same
                                                    rate of interest be paid to all taxpayers.
 2001-30-158                                        Some Individual Taxpayers are Inappropriately Receiving
                                                    Tax Credits Intended for Businesses that Provide Access
                                                    for Disabled Americans
                                  10/01/02          F-1, R-2, P-1. Analyze the results of TIGTA’s computer
                                                    program; perform similar analyses of Tax Year 2000 returns;
                                                    and develop a compliance approach to address the issue of
                                                    taxpayers fraudulently claiming this credit.
 2001-30-164                                        The Internal Revenue Service Has an Opportunity to
                                                    Relieve Considerable Taxpayer Burden Involving the
                                                    Estimated Tax Penalty
                                  07/01/02          F-1, R-1, P-1. Evaluate the design and clarity of
                                                    Underpayment of Estimated Tax by Individuals, Estates and
                                                    Trusts (Form 2210) and its instructions in order to alleviate the
                                                    excess taxpayer burden.
                                  10/01/02          F-1, R-2, P-1. Coordinate any redesign of Form 2210 with
                                                    both the practitioner and tax software communities.




60   TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
Statistical Reports - Others

❑   Access to Information
    The Inspector General Act of 1978 requires IGs to report on unreasonable refusals of information
    available to the agency which relate to programs and operations for which the IG has responsibilities.
    As of March 31, 2002, TIGTA issued one report where information or assistance requested by OA
    was refused.

        Reference No. 2002-10-009, GPRA: Criminal Investigation Can Improve Its Performance
        Measures to Better Account for Its Results

    OA was unable to issue an opinion about the quality of the data used to report the CI business
    results due to a scope impairment. CI denied OA access to the CIMIS database by stating that it
    contained information related to cases under grand jury investigation, access to which is restricted
    by the Federal Rules of Criminal Procedure (18 U.S.C. Appendix). The Federal Rules of Criminal
    Procedure, Rule 6(e), require that only those individuals approved by a government attorney may
    have access to grand jury material, and then only in furtherance of the criminal aspects of the case.

❑   Disputed Audit Recommendations
    The Inspector General Act of 1978 requires IGs to provide information on significant management
    decisions in response to audit recommendations with which the IG disagrees.

        As of March 31, 2002, TIGTA did not issue a report where a significant recommendation was
        disputed.

❑   Revised Management Decisions
    The Inspector General Act of 1978 requires IGs to provide a description and explanation of the
    reasons for any significant revised management decisions made during the reporting period.

        As of March 31, 2002, no significant management decisions were revised.

❑   Audit Reports Issued in the Prior Reporting Period With No
    Management Response
    The Inspector General Act of 1978 requires IGs to provide a summary of each audit report issued
    before the beginning of the current reporting period for which no management response has been
    received by the end of the current reporting period.

        As of March 31, 2002, they were no prior reports where management’s response was not
        received.

❑   Review of Legislation and Regulations
    The Inspector General Act of 1978 requires IGs to review existing and proposed legislation and
    regulations and to make recommendations concerning the impact of such legislation or regulations.

        TIGTA’s Office of Chief Counsel reviewed 135 proposed legislation and regulations during the
        six-month reporting period.

                                                                Appendix III - Statistical Reports, Others   61
                                        Appendix IV - Audit Products Listing

Audit Products
October 1, 2001 - March 31, 2002

 Inspector General Congressional Responses:

Reference Number            Issued      Report Title

2002-OR-029                 11/13/01    Senate Finance Committee – IRS Identification of Illegal Aliens

 Audit Reports:

Reference Number            Issued      Report Title

2002-40-003                 10/09/01    Letter Report: The Internal Revenue Service Is Contributing to the
                                        Decline in TeleFile Volumes (Taxpayer Burden: 690,000 taxpayers
                                        that will be prevented from using TeleFile.)

2002-40-004                 10/10/01    Earned Income Credit Was Paid to Taxpayers Who Did Not Provide
                                        Required Documentation During Audits (Revenue Protection:
                                        $72,126 for 26 accounts.)

2002-10-001                 10/12/01    The Office of the Chief Counsel Has Made Significant Progress in
                                        Making Its Advice Documents Available to the Public (Taxpayer
                                        Burden: 68 Chief Counsel Advice documents released for public
                                        inspection.)

2002-10-008                 10/17/01    Pricing Discrepancies on the Long Term Maintenance Computing
                                        Center Contract (TIRNO-96-D-0021) (Questioned Costs: $580,000)

2002-10-002                 10/17/01    The National Taxpayer Advocate Needs to Ensure Operations
                                        Employees Receive Training to Identify Cases

2002-40-016                 10/24/01    While Most Taxpayers Received Accurate and Timely Notification of
                                        Their Advance Refunds, Millions Did Not (Revenue Protection:
                                        $117,600,000; Taxpayer Burden: 5,823,000 taxpayers who received
                                        an incorrect or delayed advanced refund notice.)

2002-20-007                 10/11/01    The Internal Revenue Service Encrypts Data Transmitted Between Its
                                        Facilities, But Controls Over Cryptography Can Be
                                        Improved (Taxpayer Privacy and Security and Protection of
                                        Resources: In Fiscal Year 2000 over 210 million returns that the IRS
                                        processed, for which $2 trillion was collected and $194 billion
                                        refunded, were at risk of unauthorized disclosure and loss.)

2002-1C-013                 10/23/01    TIR-89-0056 and TIRNO-95-D-00062 Incurred Costs Audit For Fiscal
                                        Year Ended December 31, 1999



 62   TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
Reference Number   Issued     Report Title
2002-1C-010        10/29/01   Incurred Costs and Indirect Expense Rates Audit for Fiscal Year
                              1998: TIRNO-93-C-0026, TIRNO-93-D-0026 and TIRNO-93-D-0036

2002-1C-011        10/29/01   TIRNO-93-C-0026 Incurred Costs and Indirect Expense Rates Audit
                              Fiscal Year 1999

2002-1C-012        10/29/01   Report on Audit of Civil Group’s Proposed Indirect Expense and Cost
                              of Money Rates for Forward Pricing and Provisional Billing Rates

2002-1C-014        11/05/01   TIRNO-95-D-00057 Incurred Costs Audit For Fiscal Year Ending
                              August 31, 1999 (Questioned Costs: $1,098,764)

2002-1C-018        11/05/01   Report on Audit of Telecommunications Services

2002-10-017        11/06/01   Management Advisory Report: Restricting the Release of Information
                              Through the Exempt Organization Return Imaging Project (Taxpayer
                              Privacy and Security: 281,153 Form 990 Returns require improved
                              protection of personal information; Revenue Protection:
                              $104,400,000 in credit election payments on Form 990 Returns
                              required improved protection.)

2002-1C-015        11/10/01   Report on Audit of Billing System Internal Controls

2002-1C-019        11/13/01   TIRNO-95-D-00066 Incurred Cost Audit for Fiscal Years Ended
                              June 30, 1998 and 1999

2002-10-006        11/15/01   Improvements Are Needed in Establishing Yearly Offset Fees for the
                              Treasury Offset Program (Funds Put to Better Use: $1,100,000;
                              Reliability of Information: $13,877,087 in offset fees did not allow for
                              full recovery of all program costs.)

2002-20-025        11/16/01   Modernization Project Teams Need to Follow Key Systems
                              Development Processes

2002-1C-023        11/19/01   Audit of Final Vouchers TIRNO-95-D-00060 Task Order Numbers 1,
                              2, 3, 5, 6, 7, 8 and 9

2002-10-005        11/26/01   The Internal Revenue Service Has Taken Significant Actions, But
                              Increased Oversight Is Needed to Fully Implement the Uniform Asset
                              Disposal Mechanism

2002-1C-022        11/27/01   Report on Audit of Timekeeping Practices For Fiscal Year 2001

2002-10-024        11/29/01   The Internal Revenue Service Should Continue to Make
                              Improvements to the Low-Income Taxpayer Clinic Grant Program
                              (Protection of Resources: $441,000 paid to 6 organizations that had
                              internal control findings in their most recent Single Audit Act report.)

2002-10-030        11/29/01   Management Advisory Report: Review of Lost or Stolen Sensitive
                              Items of Inventory at the Internal Revenue Service




                                                              Appendix IV - Audit Product Listing   63
Reference Number            Issued      Report Title
2002-10-027                 11/30/01    The Internal Revenue Service Should Ensure That Its Data on the
                                        Treasury’s Performance Reporting System Have Been Verified and
                                        Validated

2002-20-026                 11/30/01    Improvements Are Needed in the Telecommunications Data Network
                                        Management Program (Protection of Resources: $1,900,000 was
                                        spent to upgrade WAN circuits that were disconnected after being
                                        used for 1 to 11 months.)

2002-40-020                 11/30/01    Better Controls Are Needed to Ensure Appropriated Funds Are Used
                                        to Improve the Application of the Earned Income Credit (Protection of
                                        Resources: $28 million in Earned Income Credit funds were used for
                                        questionable labor and equipment purchases.)

2002-1C-032                 12/06/01    Audit of Final Voucher TIRNO-95-D-00058 Task Order Number 5

2002-40-034                 12/07/01    Implementation of the Remote Examination Toll-Free Telephone
                                        Program Is Ongoing (Taxpayer Burden: 45,000 taxpayers not
                                        assigned to a single IRS auditor and 3,067 taxpayers accessed an
                                        erroneously recorded tax message.)

2002-40-028                 12/11/01    Management Advisory Report: New Job Description Gives
                                        Employees Broad Authority Without Additional Compensating
                                        Controls (Protection of Resources: $1.8 trillion in outstanding
                                        liabilities and $2 trillion collected in the year 2000 were at risk.)

2002-1C-031                 12/11/01    Audit of Final Voucher TIRNO-95-D-00058 Task Order Number 2

2002-1C-033                 12/11/01    Audit of Final Voucher TIRNO-95-D-00058 Task Order Number 7

2002-1C-036                 12/11/01    Report on Estimating System and Internal Controls Follow-up Audit

2002-1C-037                 12/11/01    Audit of Final Voucher TIRNO-95-D-00057 Task Order Number 6

2002-1C-038                 12/11/01    Audit of Final Voucher TIRNO-95-D-00057 Task Order Number 7

2002-1C-039                 12/11/01    Audit of Final Voucher TIRNO-95-D-00057 Task Order Number 13

2002-30-040                 12/14/01    Increased Management Attention Is Needed to Ensure the Success
                                        of Future Notice Redesign Efforts

2002-30-035                 12/19/01    Management Advisory Report: The Small Business/Self-Employed
                                        Division Needs to Further Consider the Impact of Potential
                                        Examination Reengineering Recommendations

2002-30-042                 12/19/01    The Internal Revenue Service Has Made Some Progress, but
                                        Significant Improvements Are Still Needed to Reduce Errors in
                                        Manual Interest Calculations (Increased Revenue: $145,159,560
                                        for 20,990 accounts; Taxpayer Rights and Entitlements: $247,705,560
                                        for 9,595 accounts.) Note: Monetary benefit projected over a five-
                                        year period.



 64   TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
Reference Number   Issued     Report Title
2002-40-021        12/20/01   There Are Significant Weaknesses in the Internal Revenue Service’s
                              Efforts to Measure Earned Income Credit Compliance (Revenue
                              Protection: $557,058 for 831 accounts; Taxpayer Burden: 3,349
                              taxpayers needlessly audited; Reliability of Information: 308 audit
                              cases with incomplete information.)

2002-30-041        12/26/01   Management Advisory Report: The Small Business/Self-Employed
                              Division Has Made Significant Progress in Addressing Its Human
                              Capital Needs but Still Must Plan for Long-Term Challenges

2002-20-043        01/09/02   Improvements Are Needed in the Management of Mid-Level
                              Computer Consolidation to Ensure the Accomplishment of Project
                              Goals (Reliability of Information: $7,840,771 in improperly captured
                              project costs and a revised business case needed to more accurately
                              project $153,143,521 in investments benefits.)

2002-20-045        01/17/02   Controls Over the Procurement Web Site Should Be Improved to
                              Better Deter and Detect External Attacks

2002-1C-047        01/22/02   Audit of Estimating System Internal Controls

2002-10-009        01/28/02   GPRA: Criminal Investigation Can Improve Its Performance
                              Measures to Better Account for Its Results

2002-30-048        1/29/02    Management Advisory Report: Significantly More Individual
                              Taxpayers Inappropriately Received Disabled Access Credits for Tax
                              Year 2000 Than for 1999

2002-1C-049        1/31/02    Report on Adequacy and Compliance of Revised Disclosure
                              Statement, Dated August 3, 2001

2002-20-044        1/31/02    The System-Level Controls Over the Security and Communications
                              System Are Adequate; However, Improvements Can Be Made
                              (Taxpayer Rights and Entitlements and Taxpayer Burden: Computer
                              system contains over 26.4 million individual and business accounts
                              that are available for inquiry each week.)

2002-10-053        02/01/02   Attestation Review of the Internal Revenue Service’s Fiscal Year
                              2001 Annual Accounting of Drug Control Funds

2002-40-051        02/15/02   The Internal Revenue Service Could Improve Its Process to More
                              Reliably Measure the Accuracy of Its Toll-Free Tax Law Assistance
                              (Reliability of Information: IRS-developed Customer Service error rate
                              of 73.78 percent may not be accurate.)

2002-10-052        2/15/02    Management Advisory Report: The Criminal Investigation Function
                              Needs to Monitor the Lead Development Centers to Minimize the
                              Risks Associated with the Accelerated Rollout




                                                             Appendix IV - Audit Product Listing   65
Reference Number            Issued      Report Title
2002-30-055                 2/27/02     Federal Requirements Need Strengthening at Lockbox Banks to
                                        Better Protect Taxpayer Payments and Safeguard Taxpayer
                                        Information

2002-30-050                 2/27/02     Significant Efforts Have Been Made to Combat Abusive Trusts, but
                                        Additional Improvements Are Needed to Ensure Fairness and
                                        Compliance Objectives Are Achieved (Increased Revenue:
                                        $138,200,000) Note: Monetary benefit projected over a two-year
                                        period.

2002-30-054                 2/25/02     The Centralization of Business Tax Return Processing to Two
                                        Submission Processing Centers Is on Schedule, but Disaster
                                        Contingency Plans Must Be Updated and Tested

2002-20-056                 03/01/02    The Customer Communications Project 2001 Release Was
                                        Deployed, but Testing Processes Did Not Ensure All Applications
                                        Were Working As Intended

2002-20-057                 03/01/02    Management Advisory Report: Network Penetration Study of Internal
                                        Revenue Service Systems

2002-20-059                 03/01/02    The Business Systems Modernization Office Needs to Strengthen Its
                                        Processes for Overseeing the Work of the PRIME Contractor

2002-40-058                 03/05/02    The Wage and Investment Division Properly Planned for the 2002
                                        Toll-Free Telephone Operation

2002-10-065                 03/08/02    Management Advisory Report: Follow-On Review of Lost or Stolen
                                        Sensitive Items of Inventory at the Internal Revenue Service

2002-30-062                 03/12/02    The Internal Revenue Service Continues to Owe Millions of Dollars in
                                        Interest to Taxpayers with Frozen Refunds (Funds Put to Better Use:
                                        $12,900,000) Note: Monetary benefit projected over a five-year
                                        period.

2002-40-046                 03/12/02    Improvements Need to Be Made to Publications and Instructions to
                                        Assist Taxpayers in Successfully Signing Their Tax Returns
                                        Electronically (Taxpayer Burden: 26,000,000 taxpayers who filed
                                        electronically but did not sign with an electronic signature.)

2002-30-060                 03/15/02    Improvements Are Needed to Enable the National Non-filer Strategy
                                        to Achieve Its Objectives

2002-40-067                 03/26/02    Management Advisory Report: Numerous Efforts Are Taken to
                                        Educate Taxpayers on Innocent Spouse Eligibility Requirements
                                        (Taxpayer Burden: 1,250,000 taxpayers who received two
                                        publications containing insufficient information.)

2002-10-068                 03/27/02    Appeals Is Generally Complying With the Requirements of the Law
                                        for Lien and Levy Appeals Cases (Taxpayer Rights and Entitlements:
                                        39 Appeals hearings and 98 determination letters did not follow all the
                                        provisions of the law or follow established Appeals guidelines.)


 66   TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
Reference Number         Issued     Report Title
2002-10-069              03/27/02   Management Advisory Report: The Internal Revenue Service’s
                                    Federal Financial Management Improvement Act Remediation Plan
                                    Complies With Reporting Requirements

2002-10-072              03/27/02   The Large and Mid-Size Business Division’s Risk Analysis Process
                                    Complies With Legal Guidelines, but Its Use Should Be Clarified

2002-10-079              03/28/02   Taxpayer Advocate Service Employees Made Adjustments to
                                    Taxpayer Accounts Without Proper Authorization

2002-20-063              03/28/02   Controls Over the LexisNexis Connection Should Be Improved to
                                    Better Deter and Detect External Attacks

2002-30-071              03/28/02   Computer Programming Can Be Used to More Effectively Stop
                                    Refunds on Illegal Claims for Reparations Credits (Revenue
                                    Protection: $90,731,930 for 2,880 accounts.) Note: Monetary
                                    benefit projected over a five-year period.

2002-30-076              03/28/02   Interim Actions Can Be Taken to Determine Partnerships’ Compliance
                                    in Withholding Taxes on Foreign Partners

2002-10-070              03/29/02   Taxpayers Should Be Informed of the Benefits of the Fast Track
                                    Mediation Program (Taxpayer Burden: 26,000 taxpayers not offered
                                    Fast Track Mediation.)

2002-10-077              03/29/02   Taxpayer Burden Can Be Reduced By Ensuring That Taxpayers Have
                                    Accurate Information for Submitting Power of Attorney Forms

2002-10-078              03/29/02   The Internal Revenue Service’s Levy Process Can Be Improved to
                                    Ensure Compliance With the Internal Revenue Code (Improper
                                    release of levies increasing Taxpayer Burden for 13 accounts and
                                    affecting Taxpayer Rights and Entitlements for 4 accounts; Reliability
                                    of Information: 37 accounts erroneously closed and 197 accounts
                                    with payments erroneously coded.)

2002-20-074              03/29/02   Sensitive Information on Excessed Computers Needs To Be More
                                    Effectively Safeguarded (Funds Put to Better Use: $4,650)

2002-20-075              03/29/02   User Activity on Most Sensitive Computer Systems Is Not Monitored

2002-40-080              03/29/02   The Internal Revenue Service Certifies Its Readiness to Process
                                    Individual Income Tax Returns in 2002




              TIGTA audit reports are available online at http://treas.gov/tigta




                                                                   Appendix IV - Audit Product Listing   67
                                                                Appendix V – Statutory TIGTA
                                                                    Reporting Requirements

In FY 2001, TIGTA completed its third round of statutory reviews that are required annually by
RRA 98. The following table reflects the status of the FY 2002 RRA 98 statutory reviews. Eleven
statutory audit reports that dealt with the adequacy and security of IRS technology were issued
during this reporting period.1


     Reference to
 Statutory Coverage                Explanation of the Provision                        Comments/TIGTA Audit Status

Enforcement Statistics           An evaluation of IRS’ compliance with            Audit fieldwork in process.
                                 restrictions under Section 1204 of RRA
I.R.C. § 7803(d)(1)(A)(i)        98 on the use of enforcement statistics
                                 to evaluate IRS employees.

Restrictions on Directly         An evaluation of IRS’ compliance with            Audit has not yet been initiated.
Contacting Taxpayers             restrictions under I.R.C. § 7521 on
                                 directly contacting taxpayers who have
I.R.C. § 7803(d)(1)(A)(ii)       indicated that they prefer their
                                 representatives be contacted.

Filing of a Notice of Lien       An evaluation of IRS’ compliance with            Audit fieldwork in process.
                                 required procedures under I.R.C. §
I.R.C. § 7803(d)(1)(A)(iii)      6320 (Supp. IV 1998) upon the filing of
                                 a notice of lien.

Levies                           An evaluation of IRS’ compliance with            Audit fieldwork in process.
                                 required procedures under I.R.C § 6330
I.R.C.§ 7803(d)(1)(A)(iv)
                                 (Supp. IV 1998) regarding levies.




1
  This includes 6 audit reports on the security of IRS technology, and 5 audit reports on IRS information technology. All information
technology program reviews are considered statutory based on the RRA 98 requirement to report annually on the adequacy and
security of IRS technology.



68   TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
    Reference to
Statutory Coverage            Explanation of the Provision                  Comments/TIGTA Audit Status

Collection Due Process       An evaluation of IRS’ compliance with      Reference Number 2002-10-068, March 2002.
                             required procedures under
                                                                        In 85 of the 87 cases reviewed (98 percent),
I.R.C.§ 7803(d)(1)(A)(iii)   I.R.C. §§ 6320 and 6330 (Supp. IV
                                                                        the IRS generally complied with the
and (iv)                     1998) regarding the taxpayers’ rights to
                                                                        requirements of the law and ensured
                             appeal lien or levy actions.
                                                                        taxpayers’ appeal rights were protected.
                                                                        However, in 2 of the 87 cases, the IRS did not
                                                                        always follow all the requirements of the law.
                                                                        In these instances, Appeals Officers either did
                                                                        not adequately balance the efficiency of the
                                                                        proposed collection action against the
                                                                        taxpayer’s legitimate concerns that the action
                                                                        be no more intrusive than necessary or did not
                                                                        obtain adequate verification from the IRS that
                                                                        all regulations had been met. OA does not
                                                                        believe that in either of these cases the
                                                                        noncompliance resulted in a legal violation of
                                                                        the taxpayer’s Collection Due Process rights
                                                                        since no collection actions were ever initiated.
                                                                        Additionally, in 82 of the 87 cases, Appeals
                                                                        appropriately communicated the decision to
                                                                        taxpayers. These results indicate an
                                                                        improvement in communicating Appeals’
                                                                        decisions to taxpayers when compared to the
                                                                        prior year’s audit. Ensuring all determination
                                                                        letters completely outline all the provisions of
                                                                        the law considered in the decision and by
                                                                        ensuring all established guidelines are
                                                                        followed could make further improvements.
                                                                        The Code of Federal Regulations (CFR), 26
                                                                        CFR 301.6330-1T(e)(Q-E7), and Appeals
                                                                        procedures state that the letters must address
                                                                        all issues raised by the taxpayer and whether
                                                                        the IRS followed all the applicable rules and
                                                                        administrative procedures and balanced tax
                                                                        collection with the taxpayers’ legitimate
                                                                        concerns. The IRS guidelines also require the
                                                                        letters to provide information concerning which
                                                                        court the taxpayer must file his/her request for
                                                                        judicial review, as well as information about
                                                                        any agreements reached during the hearing
                                                                        and the actions to be taken by the IRS or the
                                                                        taxpayer.

Seizures                     An evaluation of IRS’ compliance with      Audit fieldwork in process.
                             required procedures under
I.R.C. § 7803(d)(1)(A)(iv)   Subchapter D of Chapter 64 for
                             seizure of property for collection of
                             taxes.

Taxpayer Designations –      An evaluation of IRS’ compliance with      Audit fieldwork in process.
Illegal Tax Protester        restrictions under Section 3707 of
Designation and              RRA 98 on designation of taxpayers.
Nonfiler Designation
I.R.C. § 7803(d)(1)(A)(v)



                                                          Appendix V - Statutory TIGTA Reporting Requirements        69
     Reference to             Explanation of the Provision                 Comments/TIGTA Audit Status
 Statutory Coverage

Disclosure of Collection    Review and certify whether or not IRS      Audit is in planning process.
Activities With Respect     is complying with I.R.C. § 6103(e)(8)
to Joint Returns            to disclose information to an
I.R.C. 7803(d)(1)(B)        individual filing a joint return on
I.R.C. § 6103(e)(8)         collection activity involving the other
                            individual filing the return.


Taxpayer Complaints         Requires TIGTA to include in each of its   Audit has not yet been initiated.
                            Semiannual Reports to Congress the
I.R.C. § 7803(d)(2)(A)
                            number of taxpayer complaints received
                            and the number of employee
                            misconduct and taxpayer abuse
                            allegations received by IRS or TIGTA
                            from taxpayers, IRS employees and
                            other sources.


Administrative or Civil     Include information regarding any          Audit fieldwork in process.
Actions With Respect to     administrative or civil actions with
the Fair Debt Collection    respect to violations of the fair debt
Practices Act of 1996       collection provision of I.R.C. § 6304,
                            including a summary of such actions,
I.R.C.§ 7803(d)(1)(G)       and any resulting judgments or awards
I.R.C. § 6304               granted.
Section  3466 of RRA 98


Denial of Requests for      Include information regarding improper     Draft report issued March 26, 2002.
Information                 denial of requests for information from
I.R.C.§ 7803(d)(1)(F)       IRS based on a statistically valid
I.R.C. § 7803(d)(3)(A)      sample of the total number of
                            determinations made by IRS to deny
                            written requests to disclose information
                            to taxpayers on the basis of I.R.C.
                            § 6103 or 5 U.S.C. § 552(b)(7).


Extensions of the           Include information regarding              Audit fieldwork in process.
Statute of Limitations      extensions of the statute of limitations
for Assessment of Tax       for assessment of tax under
                            I.R.C. § 6501 and the provision of
I.R.C. § 7803(d)(1)(C)      notice to taxpayers regarding the right
I.R.C. § 6501               to refuse or limit the extension to
                            particular issues or a particular period
                            of time.




70   TIGTA's FY 2002 Semiannual Report to Congress ❍ March 31, 2002
   Reference to              Explanation of the Provision              Comments/TIGTA Audit Status
Statutory Coverage

Adequacy and Security      Evaluation of IRS’ adequacy and        The consolidated status of IRS’ adequacy and
of the Technology of the   security of its technology.            security of its technology for this reporting
IRS                                                               period is highlighted on pages 8-10.
I.R.C. § 7803(d)(1)(D)
                                                                  Security Reviews:
                                                                  Reference No. 2002-20-007, October 2001
                                                                  Reference No. 2002-20-044, January 2002
                                                                  Reference No. 2002-20-045, January 2002
                                                                  Reference No. 2002-30-054, February 2002
                                                                  Reference No. 2002-20-057, March 2002
                                                                  Reference No. 2002-20-063, March 2002

                                                                  Information Technology:
                                                                  Reference No. 2002-20-025, November 2001
                                                                  Reference No. 2002-20-026, November 2001
                                                                  Reference No. 2002-20-043, January 2002
                                                                  Reference No. 2002-20-056, March 2002
                                                                  Reference No. 2002-20-059, March 2002




                                                      Appendix V - Statutory TIGTA Reporting Requirements    71
                                 Appendix VI - Section 1203 Standards
In general, the Commissioner of IRS shall terminate the employment of any employee of IRS if
there is a final administrative or judicial determination that in the performance of official duties such
employee committed the misconduct violations outlined below. Such termination shall be a
removal for cause on charges of misconduct.
Misconduct violations include:
•    Willful failure to obtain the required approval signatures on documents authorizing the seizure of
     a taxpayer’s home, personal belongings, or business assets.

•    Providing a false statement under oath with respect to a material matter involving a taxpayer or
     taxpayer representative.

•    Violating, with respect to a taxpayer, taxpayer representative, or other employee of IRS,
     — any right under the Constitution of the United States, or
     — any civil right established under Title VI or VII of the Civil Rights Act of 1964,1 Title IX of the
       Education Amendments of 1972,2 Age Discrimination in Employment Act of 1967,3 Age
       Discrimination Act of 1975,4 Section 501 or 504 of the Rehabilitation Act of 1973,5 or Title I of
       the Americans with Disabilities Act of 1990.6

•    Falsifying or destroying documents to conceal mistakes made by any employee with respect to a
     matter involving a taxpayer or taxpayer representative.

•    Committing assault or battery on a taxpayer, taxpayer representative, or other employee of IRS,
     but only if there is a criminal conviction, or a final judgment by a court in a civil case, with respect
     to the assault or battery.

•    Violating of the Internal Revenue Code of 1986, Treasury regulations, or policies of IRS
     (including the Internal Revenue Manual) for the purpose of retaliating against, or harassing a
     taxpayer, taxpayer representative, or other employee of IRS.

•    Willfully misusing provisions of Section 6103 of the Internal Revenue Code of 1986 for the
     purpose of concealing information from a congressional inquiry.




1
    Pub. L. No. 88-352, 78 Stat. 241 (codified as amended in 42 U.S.C. § 2000e).
2
    20 U.S.C. §§ 1681-1688 (1994).
3
    29 U.S.C. §§ 621-634 (1994 & Supp. IV 1998).
4
    42 U.S.C. §§ 6101-6107 (1994 & Supp. IV 1998).
5
    Pub. L. No. 93-112, 87 Stat. 355 (codified as amended in 29 U.S.C. §§ 701 & 794).
6
    42 U.S.C. §§ 12111 et seq. (1994 & Supp. IV 1998).


72      TIGTA's FY 2002 Semiannual Report to Congress       ❍   March 31, 2002
•   Willfully failing to file any return of tax required under the Internal Revenue Code of 1986 on or
    before the date prescribed therefor (including any extensions), unless such failure is due to
    reasonable cause and not to willful neglect.
•   Willfully understating federal tax liability, unless such understatement is due to reasonable cause
    and not to willful neglect, and,

•   Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.
In general, the IRS Commissioner may take a personnel action other than employment termination
for the misconduct violations outlined above. The exercise of this authority shall be at the sole
discretion of the Commissioner and may not be delegated to any other officer. The Commissioner,
in his/her sole discretion, may establish a procedure which will be used to determine whether an
individual should be referred to the Commissioner for a determination by the Commissioner. Any
determination of the Commissioner in these matters may not be appealed in any administrative or
judicial proceeding.




                                                                 Appendix VI - Section 1203 Standards    73
          TIGTA HOTLINE
Reporting Fraud, Waste and Abuse - If you are aware of
fraud, waste, mismanagement, and abuse in the IRS
programs and operations, report it to the TIGTA Hotline!

Call
1-800-366-4484
Fax
(202) 927-7018
Write
Treasury Inspector General for Tax Administration
P.O. Box 589
Ben Franklin Station
Washington, D.C. 20044-0589

Information is confidential and you may remain
anonymous

For Tax Problem Assistance
Call the IRS Taxpayer Advocate at:
1-877-777-4778
                       DEPARTMENT OF THE TREASURY
              Office of the Inspector General for Tax Administration
                         1125 15th Street, NW, Room 700A
                              Washington, D.C. 20005




This report, as well as complete copies of our audit reports, are available on line at:
                            http://treas.gov/tigta
